APPENDIX

TABLE OF APPENDICES
Appendix A
Memorandum, United States Court of
Appeals for the Ninth Circuit, Territory of
American Samoa v. National Marine
Fisheries Service, No. 17-17081 (Sept. 25,
2020)............................................................. App-1
Appendix B
Order, United States District Court for
the District of Hawaii, Territory of
American Samoa v. National Marine
Fisheries Service, Civil 16-00095 LEK
(Mar. 20, 2017) ............................................ App-5
Appendix C
Order, United States District Court for
the District of Hawaii, Territory of
American Samoa v. National Marine
Fisheries Service, Civil 16-00095-LEKKJM (Aug. 10, 2017) .................................. App-54
Appendix D
Relevant Constitutional And Statutory
Provisions................................................... App-73

App-1

Appendix A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 17-17081
________________
TERRITORY OF AMERICAN SAMOA,
Plaintiff-Appellee,
v.
NATIONAL MARINE FISHERIES SERVICE;
UNITED STATES DEPARTMENT OF COMMERCE;
NATIONAL OCEANIC AND ATMOSPHERIC
ADMINISTRATION; KITTY SIMONDS, EXECUTIVE
DIRECTOR OF WESTERN PACIFIC REGIONAL FISHERY
MANAGEMENT COUNCIL; MICHAEL D. TOSATTO,
REGIONAL ADMINISTRATOR FOR NOAA’S NATIONAL
MARINE FISHERIES SERVICE PACIFIC ISLANDS
REGIONAL OFFICE; WILBUR ROSS, SECRETARY OF
COMMERCE; CHRIS OLIVER**,
Defendants-Appellants.
________________
Argued and Submitted: February 5, 2020
Filed: September 25, 2020

**

Chris Oliver, Assistant Administrator for Fisheries, is
substituted for Samuel D. Rauch III. See Fed. R. App. P.
43(c)(2).

App-2
________________
Appeal from the United States District Court
for the District of Hawaii in D.C. No. 1:16-cv-00095LEK-KJM, Leslie E. Kobayashi, District Judge,
Presiding
________________
MEMORANDUM*
________________
Before: McKEOWN, BADE, and HUNSAKER,***
Circuit Judges.
Appellants seek reversal of the district court’s
partial grant of summary judgment and vacatur of a
final rule regarding large fishing vessels in the waters
off the coast of American Samoa. Because the parties
are familiar with the administrative record and facts,
we do not repeat them here. We have jurisdiction
under 28 U.S.C. § 1291 and reverse.
This appeal raises a question of whether the
Government
of
American
Samoa
(“ASG”)—
representing an unorganized American territory—can
sue federal agencies under the doctrine of parens
patriae, on the basis of language of early twentieth*

This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

***

This case was originally submitted to a panel that included
Judge Jerome Farris. After Judge Farris’s passing, Judge
Hunsaker was drawn to replace him. See Ninth Circuit
General Order 3.2.h. Judge Hunsaker has reviewed the
briefs, record, and oral argument recording.

App-3
century cessions and the status of the waters at issue
as high seas. Because parens patriae is a prudential
doctrine and not a jurisdictional limitation, we need
not reach this issue, and instead proceed to the merits.
See Lexmark Int 'I, Inc. v. Static Control Components,
Inc., 572 U.S. 118, 125-28 & n.4 (2014) (distinguishing
between “prudential standing” and Article III
jurisdictional limitations).
We review de novo the district court’s grant of
summary judgment. Branch Banking & Tr. Co. v.
D.M.S.I., LLC, 871 F.3d 751, 759 (9th Cir. 2019). Our
review of the National Marine Fisheries Service’s
(“NMFS”) compliance with the Magnuson-Stevens
Fishery Conservation and Management Act, 16 U.S.C.
§§ 1801—1891d, is dictated by the Administrative
Procedure Act, and we will set aside the regulation if
it is “arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law.” 5 U.S.C. §
706(2)(A); Pae. Coast Fed'n of Fishermen’s Ass 'ns v.
Blank, 693 F.3d 1084, 1091 (9th Cir. 2012). “This
standard of review is highly deferential, presuming
the agency action to be valid and affirming the agency
action if a reasonable basis exists for its decision.” Id.
(quotation marks and citation omitted).
Here, NMFS considered the input offered by ASG
regarding the rule’s impact on fishing communities,
the probable effects of increased large vessel longline
fishing, and the availability of fish. It is of little import
that NMFS did not specifically cite the cessions when
detailing the “other applicable laws” it consulted, as
NMFS considered the consequences of the rule on alia
fishing boats, and rationally determined the effects

App-4
were not significant. “[S]ince 2006, fewer than three
alia have been operating on a regular basis; and of
these, only one was active in 2013 and 2014.” Pacific
Island Pelagic Fisheries; Exemption for Large U.S.
Longline Vessels, 81 Fed. Reg. 5,619-5,620 (Feb. 3,
2016). The Western Pacific Fishery Management
Council and ASG are developing strategies to develop
and increase alia fishing, however, and NMFS will
annually review the effects of the rule, providing ASG
the opportunity for further input and challenge.
When, as here, the agency “has considered the
relevant factors and articulated a rational connection
between the facts found and the choice made, the
decision is not arbitrary or capricious.” Pae. Dawn
LLC v. Pritzker, 831 F.3d 1166, 1173 (9th Cir. 2016)
(quotation marks and citations omitted).
REVERSED.

App-5
Appendix B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII
________________
Civil 16-00095 LEK
________________
TERRITORY OF AMERICAN SAMOA,
Plaintiff,
v.
NATIONAL MARINE FISHERIES SERVICE;
UNITED STATES DEPARTMENT OF COMMERCE;
NATIONAL OCEANIC AND ATMOSPHERIC
ADMINISTRATION; PENNY PRITZKER,
SECRETARY OF COMMERCE; KITTY SIMONDS,
EXECUTIVE DIRECTOR OF WESTERN PACIFIC REGIONAL
FISHERY MANAGEMENT COUNCIL; EILEEN SOBECK,
ASSISTANT ADMINISTRATOR FOR FISHERIES; MICHAEL
D. TOSATTO, REGIONAL ADMINISTRATOR FOR NOAA’S
NATIONAL MARINE FISHERIES SERVICE PACIFIC
ISLANDS REGIONAL OFFICE,
Defendants.
________________
Filed: Mar. 20, 2017
________________
ORDER GRANTING IN PART AND DENYING
IN PART PLAINTIFF’S MOTION FOR
SUMMARY JUDGMENT AND DENYING

App-6
DEFENDANTS’ COUNTER-MOTION FOR
SUMMARY JUDGMENT
On July 25, 2016, Plaintiff Territory of American
Samoa (“Plaintiff”) filed its Motion for Summary
Judgment (“Motion”). [Dkt. no. 23.] On October 24,
2016, Defendants National Marine Fisheries Service
(“NMFS”); United States Department of Commerce
(“DOC”); National Oceanic and Atmospheric
Administration (“NOAA”); Penny Pritzker, in her
official capacity as the Secretary of Commerce; Kitty
Simonds, in her official capacity as Executive Director
of the Western Pacific Regional Fishery Management
Council (“the Council”); Eileen Sobeck, in her official
capacity as Assistant Administrator for Fisheries,
NMFS; and Michael D. Tosatto, in his official capacity
as Regional Administrator, NMFS Pacific Islands
Regional Office (all collectively, “Defendants”) filed
their combined memorandum in opposition to the
Motion and Counter-Motion for Summary Judgment
(“Counter-Motion”). [Dkt. no. 28.] Plaintiff filed its
combined reply in support of the Motion and
memorandum in opposition to the Counter-Motion
(“Plaintiff’s Reply”) on December 8, 2016, and
Defendants filed their reply in support of the CounterMotion (“Defendants’ Reply”) on January 19, 2017.
[Dkt. nos. 35, 39.]
These matters came on for hearing on February
13, 2017. After careful consideration of the motions,
supporting and opposing memoranda, the arguments
of counsel, and the relevant legal authority, Plaintiff’s
Motion is HEREBY GRANTED IN PART AND
DENIED IN PART and Defendants’ Counter-Motion

App-7
is HEREBY DENIED for the reasons set forth below.
Specifically, this Court GRANTS Plaintiff’s Motion as
to Count I and CONCLUDES that the rule at issue in
this case is invalid. In light of the ruling on Count I,
this Court DISMISSES Plaintiff’s remaining claims as
moot.
BACKGROUND
Plaintiff filed its Complaint on March 4, 2016,
pursuant to, inter alia, the Administrative Procedure
Act (“APA”), 5 U.S.C. §§ 701-06, and the MagnusonStevens Fishery Conservation and Management Act
(“MSA”), 16 U.S.C. § 1855(f). [Complaint at ¶ 7.]
Plaintiff seeks an order setting aside NMFS, NCAA,
and DOC’s Final rule regarding Pacific Island Pelagic
Fisheries; Exemption for Large U.S. Longline Vessels
to Fish in Portions of the American Samoa Large
Vessel Prohibited Area, 81 Fed. Reg. 5619 (Feb. 3,
2016). The rule reduces the size of the Large Vessel
Prohibited Area in American Samoa (“LVPA” and
“2016 LVPA Rule”). Plaintiff argues that the rule
violates the deeds of cession of American Samoa,
which constitutes a violation of the MSA. [Complaint
at ¶ 6.] Plaintiff alleges that:
In promulgating this rule, NMFS acted
arbitrarily by asserting a rationale to
support the new rule that is contrary to
the evidence in the record. NMFS also
abused its discretion by failing to review,
address, or consider the Deeds of Cession
as required under the MSA and the
Administrative Procedure Act (“APA”).
[Id.]

App-8
Plaintiff asserts the following claims: violation of
the MSA by failing to ensure that the rules
promulgated are consistent with the deeds of cession
(“Count I”); [id. at 49- 56;] breach of fiduciary duty, in
violation of APA, § 706(2) (a) (“Count II”); [id. at 5761;] failure by NMFS to conduct adequate review of
the deeds of cession before promulgating the 2016
LVPA Rule and failure by the Council to provide
training on the deeds of cession, both in violation of
the MSA, 16 U.S.C. § 1854, and APA § 706(2)(a)
(“Count III”); [id. at ¶¶ 62-68;] and arbitrary and
capricious action, in violation of APA § 706(2)(a)
(“Count IV”) [id. at ¶¶ 69-71].
Plaintiff seeks the following relief: 1) an order
vacating and setting aside the 2016 LVPA Rule; 2) a
declaratory judgment that a) the rule violates the
MSA and APA because it is inconsistent with the
deeds of cession, b) the rule is a breach of the United
States’ fiduciary duty to the people of American
Samoa, c) NMFS violated the MSA and the APA by
failing to review and address the deeds of cession, and
d) NMFS acted arbitrarily and capriciously because it
relied on a rationale that was contrary to the evidence
before it; 3) any appropriate injunctive relief; 4)
reasonable attorneys’ fees and costs; and 5) any other
appropriate relief. [Id. at pgs. 20-21.]
Defendants filed their answer to the Amended
Complaint on April 28, 2016. [Dkt. no. 18.]
I.

Legal and Historical Background
A.

MSA

The Ninth Circuit has stated:

App-9
The Magnuson-Stevens Fishery
Conservation and Management Act
(“MSA”), 16 U.S.C. §§ 1801-1884, “was
enacted to establish a federal-regional
partnership
to
manage
fishery
resources.” Nat’1 Res. Def. Council, Inc,
v. Daley, 209 F.3d 747, 749 (D.C. Cir.
2000). Under the MSA, the federal
government exercises “sovereign rights
and exclusive fishery management
authority over all fish, and all
Continental Shelf fishery resources,
within the exclusive economic zone”
(“EEZ”), 16 U.S.C. § 1811(a), which
extends from the seaward boundary of
each coastal state t1] to 200 miles
offshore, id. § 1802(11); City of
Charleston v. A Fisherman’s Best, Inc.,
310 F.3d 155, 160 (4th Cir. 2002). The
MSA expressly preserves the jurisdiction
of the states over fishery management
within their boundaries. See 16 U.S.C.
§ 1856(a)(1).
To manage fishing in the EEZ, the
MSA calls for the creation of regional

1

“The term ‘State’ means each of the several States, the
District of Columbia, the Commonwealth of Puerto Rico,
American Samoa, the Virgin Islands, Guam, and any other
Commonwealth, territory, or possession of the United
States.” 16 U.S.C. § 1802(40).

App-10
Fishery Management Councils (“FMCs”),
composed of state and federal officials
and experts appointed by the Secretary
of the National Marine Fisheries Service
(“NMFS”). 16 U.S.C. § 1852(b)(1)-(2).
With the cooperation of “the States, the
fishing
industry,
consumer
and
environmental organizations, and other
interested persons,” id. § 1801(b)(5), the
NMFS
and
FMCs
develop
and
promulgate Fishery Management Plans
(“FMPs”) to “achieve and maintain, on a
continuing basis, the optimum yield from
each fishery,” id. § 1801(b)(4). In the
MSA, “optimum yield” means the
amount of fish that “will provide the
greatest overall benefit to the Nation,
particularly with respect to food
production
and
recreational
opportunities, and taking into account
the protection of marine ecosystems.” Id.
§ 1802(33);
see
also
50
C.F.R.
§ 600.310(e)(3).
Chinatown Neighborhood Ass’n v. Harris, 794 F.3d
1136, 1139-40 (9th Cir. 2015) (footnotes omitted), cert,
denied, 136 S. Ct. 2448 (2016). The Council is the
regional council for Hawai’i, American Samoa, Guam,
and the Commonwealth of the Northern Mariana
Islands. 16 U.S.C. § 1852(a)(1)(H). The Council’s
thirteen voting members include fishery management
officials representing those areas, and eight citizens
appointed by the Secretary from those areas.

App-11
[Counter-Motion at 6 n.3 (citing 16 U.S.C. § 1852(a) (1)
(H)).]
The FMPs and FMP amendments that the
regional councils prepare must be reviewed and
approved by NMFS, and must comply with the
requirements of 16 U.S.C. § 1853(a) and applicable
laws. See 16 U.S.C. § 1854(a)(1)-(3). In addition,
regional councils can propose regulations or
modifications to regulations that are necessary to
implement an FMP or an FMP amendment, and the
Secretary can prepare an FMP or an FMP
amendment. See §§ 1853(c), 1854(c). Section 1854(c)
states, in pertinent part:
(6)
The Secretary may propose
regulations in the Federal Register to
implement any plan or amendment
prepared by the Secretary. In the case of
a plan or amendment to which paragraph
(4)(A) applies, such regulations shall be
submitted to the Council with such plan
or amendment. The comment period on
proposed regulations shall be 60 days,
except that the Secretary may shorten
the comment period on minor revisions to
existing regulations.
(7)
The Secretary shall promulgate
final regulations within 30 days after the
end of the comment period under
paragraph (6). The Secretary must
publish in the Federal Register an
explanation
of
any
substantive
differences between the proposed and

App-12
final rules. All final regulations must be
consistent with the fishery management
plan, with the national standards and
other provisions of this chapter, and with
any other applicable law.
The ten “national standards for fishery conservation
and management” are set forth in 16 U.S.C. § 1851(a).
Regulations promulgated pursuant to the MSA
are subject to judicial review under certain provisions
of the APA. 16 U.S.C. § 1855(f). Section 1855(f)(1)(B)
states that “the appropriate court shall only set aside
any such regulation or action on a ground specified in
section 706(2)(A), (B), (C), or (D) of” the APA.
B.

Cession

American Samoa is an unincorporated and
unorganized United States territory. [Complaint at ¶
8; Answer at ¶ 8 (admitting those portions of Plaintiff’s
¶ 8).] The parties agree that: “At the turn of the 20th
Century, the United States Government entered into
and executed two separate Deeds of Cession between
the United States Government and the leaders of the
islands of Tutuila, Aunu’u, Ofu, Olosega, Ta’u and
Rose Island.” [Complaint at ¶ 16; Answer at ¶ 16.] One
is the Tutuila and Aunu’u Deed of Cession, dated April
17, 1900, and the other is the Manu’a Deed of Cession,
dated July 14, 1904 (collectively “the Deeds of
Cession”). The Deeds of Cession ceded certain lands
and surrounding bodies of water to the United States.
[Complaint at ¶¶ 17-18; Answer at ¶¶ 17-18
(admitting portions of Plaintiff’s ¶¶ 17-18).]

App-13
On October 24, 2016, Defendants filed a Motion
for Judicial Notice Pursuant to FRE 201(b)(2) (“RJN”).
[Dkt. no. 27.] Defendants ask this Court to take
judicial notice of the contents of the Convention of
18992 and the Deeds of Cession, which they obtained
from the American Samoa Bar Association website.
[RJN at 1-2.] On December 5, 2016, Plaintiff filed a
statement of no opposition to the RJN. [Dkt. no. 32.]
The Cession of Tutuila and Aunu’u states, in
pertinent part:
Now know Ye:
1.
That we, the Chiefs whose names
are hereunder subscribed by virtue of our
office as the hereditary representatives
of the people of said islands, in
consideration of the premises hereinbefore recited and for divers good
considerations us hereunto moving, have
ceded, transferred, and yielded up unto
Commander B. F. Tilley of the U.S.

2

In the Convention of 1899, entered into on December 2, 1899
and ratified on February 16, 1900, Germany and Great
Britain renounced in favor of the United States their “rights
and claims over and in respect to the Island of Tutuila and
all other islands of the Samoan group east of Longitude 171
degrees west of Greenwich.” [RJN, Attachment at 2.] All
three documents that are the subject of the RJN are attached
to the RJN as a single Attachment. Because the Attachment
is not consecutively paginated, the Court will refer to the
page numbers assigned to the Attachment in the district
court’s electronic case filing system.

App-14
“Abarenda.”
the
duly
accredited
representative of the Government of the
United States of America in the islands
hereinafter mentioned or described for
and on behalf of the said government. All
these the islands of Tutuila and Aunu’u
and all other islands, rocks, reefs,
foreshores and waters lying between the
13th degree and the 15th degree of south
latitude and between the 171st degree
and 167th degree of west longitude from
the meridian of Greenwich, together with
all sovereign rights thereunto belonging
and possessed by us, to hold the said
ceded territory unto the Government of
the United States of America; to erect the
same into a separate District to be
annexed to the said Government, to be
known and designated as the District of
“Tutuila”.
2.
The Government of the United
States of America shall respect and
protect the individual rights of all people
dwelling in Tutuila to their lands and
other property in said District; but if the
said Government shall require any land
or any other thing for Government uses,
the Government may take the same upon
payment of a fair consideration for the
land, or other thing, to those who may be
deprived of their property on account of
the desire of the Government.

App-15
[RUN, Attachment at 4.] The Cession of Manu’a
Islands states, in pertinent part:
Now Know Ye: (1) That we, Elesare
Tuimanu’a and the Chief whose names
are
hereunder
subscribed,
in
consideration
of
the
premises
hereinbefore recited, have ceded, and, by,
These Presents Do Cede, unto the
Government of the United States of
America, All Those, The Islands of the
Manu’a Group, being the whole of
eastern portion of the Samoan Islands
lying east of Longitude 171 degrees west
of Greenwich and known as Tau,
Olosega, Ofu, and Rose Islands, and all
other, the waters and property and
adjacent thereto, together with all
sovereign rights thereunto belonging and
possessed by us.
To hold the said ceded territory unto the
Government of the United States of
America, to erect the same into a
territory or district of the said
Government.
(2) It is intended and claimed by these
Presents that there shall be no
discrimination in the suffrages and
political privileges between the present
residents of said Islands and citizens of
the United States dwelling therein, and
also that the rights of the Chiefs in each

App-16
village and of all people concerning their
property according to their customs shall
be recognized.
[Id. at 6.] Plaintiff asserts that: “The property and
surrounding waters described in the Deeds of Cession
measure more than 28,000 square miles” (“Ceded
Area”) . [Complaint at ¶ 21 (citing Complaint, Exh. C
(map of Ceded Area)).]
In 1929, Congress enacted 48 U.S.C. § 1661,
which states, in pertinent part:
The cessions by certain chiefs of the
islands of Tutuila and Manua and
certain other islands of the Samoan
group lying between the thirteenth and
fifteenth degrees of latitude south of the
Equator and between the one hundred
and sixty-seventh and one hundred and
seventy-first degrees of longitude west of
Greenwich, herein referred to as the
islands of eastern Samoa, are accepted,
ratified, and confirmed, as of April 10,
1900, and July 16, 1904, respectively.
§ 1661(a).
C.

2002 LVPA Rule

On January 30, 2002, NMFS, NOAA, and DOC
adopted a Final rule regarding Fisheries Off West
Coast States and in the Western Pacific; Pelagic
Fisheries; Prohibition on Fishing for Pelagic
Management Unit Species; Nearshore Area Closures

App-17
.

Around American Samoa by Vessels More Than 50
Feet in Length (“2002 LVPA Rule”. 67 Fed. Reg.
4369.3 It states:
NMFS issues this final rule to prohibit
certain vessels from fishing for Pacific
pelagic management unit species
(PMUS)[4] within nearshore areas
seaward of 3 nautical miles (nm) to
approximately 50 nm around the islands
of American Samoa. This prohibition
applies to vessels that measure more
than 50 ft (15.2 m) in length overall and
that did not land pelagic management
unit species in American Samoa under a
Federal longline general permit prior to
November 13, 1997. [5] This action is

3

The proposed rule was published on July 31, 2001. 66 Fed.
Reg. 39475.

4

“‘Western Pacific pelagic management unit species’ include
different species of tuna, billfish, shark, other pelagic fish,
and squid.” [Counter-Motion at 10 n.5 (citing 50 C.F.R. §
665.800).]

5

Defendants state:
To fish for Western Pacific pelagic management unit species
“using longline gear in the EEZ around American Samoa[,]”
“[a] vessel of the United States must be registered for use
under a valid American Samoa longline limited access
permit.” 50 C.F.R. § 665.801(c)(1). These limited access
permits are issued to the following four vessel size classes:
Class A vessels (less than or equal to forty feet long); Class B
vessels (over forty feet and up to fifty feet long); Class C

App-18
intended to prevent the potential for gear
conflicts and catch competition between
large fishing vessels and locally based
small fishing vessels [(“alias”)]. Such
conflicts and competition could lead to
reduced opportunities for sustained
participation by residents of American
Samoa in the small-scale pelagic fishery.
....
. . . [S]mall vessel fishermen have raised
concerns over the potential for gear
conflicts between the small-vessel (less
than or equal to 50 ft (15.2 m) in length
overall) fishing fleet and large longline
fishing vessels greater than 50 ft (15.2 m)
length overall, hereafter called “large
vessels,” targeting PMUS in the
American Samoa pelagic fishery, as well
as regarding adverse impacts on fishery
resources resulting from the increased
numbers of large fishing vessels in the
fishery. Due to the limited mobility of the
smaller vessels, an influx of large
domestic vessels fishing in the nearshore
waters of the U.S. exclusive economic

vessels (over fifty feet and up to seventy feet long); and Class
D vessels (over seventy feet long). Id. § 665.816(c).
[Counter-Motion at 10 n.6 (alterations Defendants’).]

App-19
zone (EEZ) around American Samoa
could lead to gear conflicts, catch
competition, and reduced opportunities
for sustained fishery participation by the
locally based small boat operators. Local
fishermen and associated fishing
communities depend on this fishery not
only for food, income, and employment,
but also for the preservation of their
Samoan culture.
67 Fed. Reg. at 4369.
D.

2016 LVPA Rule

On August 25, 2015, NMFS published the
proposed rule and a draft environmental assessment
for public comment.6 80 Fed. Reg. 51527. “NMFS
received comments from over 270 individuals,
commercial and recreational fishermen, businesses,
Territorial government offices (including the Governor
of American Samoa and the American Samoa
Department of Marine and Wildlife Resources),
Federal
agencies,
and
non-governmental
organizations.” 2016 LVPA Rule, 81 Fed. Reg. at 5619.
Ultimately, the 2016 LVPA Rule

6

NMFS’s Regulatory Amendment, Exemption for Large (>50
ft) U.S. Longline Vessels to Fish in Portions of the American
Samoa Large Vessel Prohibited Areas, Including an
Environmental Assessment and Regulatory Impact Review,
dated January 8, 2016 (“2016 LVPA EA”) is Administrative
Record (“AR”) at A185-91.

App-20
allows large federally permitted U.S.
longline vessels to fish in certain areas of
the Large Vessel Prohibited Area
(LVPA). NMFS will continue to prohibit
fishing in the LVPA by large purse seine
vessels. The fishing requirements for the
Rose Atoll Marine National Monument
remain unchanged. The intent of the rule
is to improve the viability of the
American Samoa longline fishery and
achieve optimum yield from the fishery
while
preventing
overfishing,
in
accordance with National Standard 1.
....
SUPPLEMENTARY INFORMATION:
The American Samoa large vessel
prohibited area (LVPA) extends seaward
approximately 30-50 nm around the
various islands of American Samoa (see
50 CFR 665.806(b)). Federal regulations
restrict vessels 50 ft and longer from
fishing for pelagic management unit
species within the LVPA. The Council
and NMFS established the LVPA in 2002
to prevent the potential for gear conflicts
and catch competition between large and
small fishing vessels. . . .
Since 2002, the American Samoa
pelagic fisheries have changed such that
the conditions that led the Council and

App-21
NMFS to establish the LVPA are no
longer present. The LVPA may be
unnecessarily reducing the efficiency of
the larger American Samoa longline
vessels by displacing the fleet from a part
of their historical fishing grounds.
To address the current fishery
conditions, the Council recommended
that NMFS allow federally permitted
U.S. longline vessels 50 ft and longer to
fish in portions of the LVPA. Specifically,
this action allows large U.S. vessels that
hold a Federal American Samoa longline
limited entry permit to fish within the
LVPA seaward of 12 nm around Swains
Island, Tutuila, and the Manua Islands.
NMFS will continue to prohibit fishing in
the LVPA by large purse seine vessels.
The fishing requirements for the Rose
Atoll Marine National Monument also
remain unchanged.
This action allows fishing in an
additional 16,817 nm of Federal waters,
allowing large longline vessels to
distribute fishing effort over a larger
area. This may reduce catch competition
among the larger vessels and promote
economic efficiency by reducing transit
costs. This action is intended to improve
the efficiency and economic viability of
the American Samoa longline fleet, while

App-22
ensuring that fishing by the longline and
small vessel fleets remains sustainable
on an ongoing basis. NMFS will continue
to prohibit fishing by large longline
vessels within the U.S. Exclusive
Economic Zone (EEZ) from 3-12 nm
around the islands, thus maintaining
non-competitive fishing opportunities for
the small-vessel longline fleet. . . .
Id. (emphasis in original) (footnote omitted). The 2016
LVPA Rule was effective as of January 29, 2016. Id.
Thus, the 2016 LVPA Rule allows permitted Class C
and D vessels to fish within the waters that used to be
part of the LVPA under the 2002 rule.
In the Complaint, Plaintiff alleges that NMFS’s
position that the conditions giving rise to the 2002
LVPA Rule no longer exist is mistaken. “Specifically,
NMFS determined that the decrease in local alias
meant that potential for gear conflict and catch
conflict is no longer a concern.” [Complaint at ¶ 28.]
Plaintiff also alleges that the 2016 LVPA Rule “deincentivizes inactive or aspiring local alias that want
to enter the fishery. This new rule will also lead to
overcrowding of the fishery by large vessels.” [Id. at ¶
31.] Further, the rule allegedly fails to address the
importance of the fishery to the American Samoan
culture. Plaintiff states that the 2016 LVPA Rule did
not cite to any of the comments that referred to
cultural reasons and the Deeds of Cession as grounds
to maintain the 2002 LVPA Rule, including the
comments by: the Governor, Dr. Ruth Matagi Tofiga,
the director of the American Samoa Department of

App-23
Marine and Wildlife Resources and a member of the
Council; and descendants of the chiefs who signed the
Deeds of Cession. [Id. at ¶¶ 34-36.]
The 2016 LVPA Rule does state:
Comment 27: Several commenters noted
that in the Deed of Cession with the
chiefs of the islands of Tutuila, Aunu’u,
and Manua Islands, the United States
promised to protect the lands, preserve
the traditions, customs, language and
culture, Samoan way of life, and the
waters surrounding the islands, and that
all the science and environmental
analysis should not supersede the rights
of the people of these islands.
Response: NMFS’ decision to approve the
Council’s recommendation to modify the
LVPA is consistent with its authority
under the Magnuson-Stevens Act to
manage fishery resources in the U.S.
EEZ. This action relieves an area
restriction that applied to certain large
commercial fishing operators within a
portion of the US EEZ (generally 12 to 50
nm from shore), based on NMFS’
determination that the restriction no
longer serves the conservation and
management purposes for which it was
developed. Importantly, this action
preserves full access to these waters by
smaller vessels, including alias, sport
fishers, and artisanal fishing vessels,

App-24
throughout the EEZ, as authorized under
the
existing
American
Samoa
Archipelagic Fishery Ecosystem Plan
and implementing regulations. Further,
this action does not alter the authority of
American Samoa to manage its coastal
fisheries to the extent authorized under
the Magnuson-Stevens Act, 16 U.S.C.
1856.
NMFS took particular care to ensure
that the views of American Samoa
stakeholders,
including
fishermen,
fishing communities, and the American
Samoa government, were solicited and
taken into account throughout the
development of this action. Consistent
with the Magnuson-Stevens Act, the
Council and NMFS provided a number of
opportunities for American Samoa’s
participation during all material phases
of the development of this measure,
including Council meetings to discuss the
amendment,
the
Coastal
Zone
Management Act (CZMA) process, and
public meetings held in American Samoa
(see response to Comment 1).
81 Fed. Reg. at 5623. Plaintiff asserts that the 2016
LVPA Rule does not address “the rights and
guarantees provided in the Deeds of Cession” and
whether the rule is consistent with them. [Complaint
at 38.] Plaintiff argues that, by “allow [ing] large

App-25
longliners to fish within ceded areas that were
designated as protected properties,” the 2016 LVPA
Rule violates the Deeds of Cession because the United
States government agreed “to safeguard and respect
the property rights of the native people of American
Samoa according to their customs and practices, which
include cultural fishing practices,” and Plaintiff
alleges those practices “will be greatly inhibited when
the LVPA is reduced from 50 to 12 nautical miles.” [Id.
at ¶ 45.] Because the rule is not consistent with the
applicable law, including the Deeds of Cession,
Plaintiff argues that it violates the MSA and is an
abuse of discretion under the APA. [Id. at ¶¶ 38, 43.]
It further argues that the failure to review and
address the Deeds of Cession was the result of the
Council’s failure to train Council members regarding
applicable laws, as required by the MSA. Plaintiff
asserts that the 2016 LVPA Rule was arbitrary,
capricious, and an abuse of discretion because the
proposed rule was incomplete and the Council was
“uninformed.” [Id. at ¶ 39.]
II.

Motion

In the Motion, Plaintiff seeks summary judgment
as to Counts I, II, and III. [Motion at 2.]
The Council has recognized that “[American]
Samoa has a long history of dependence on pelagic
fishery resources.” [AR at H202.7] Plaintiff
7

AR at H001-280 is the Council’s Measure to limit pelagic
longline fishing effort in the Exclusive Economic Zone around
American Samoa - Amendment 11 to the Fishery
Management Plan for the Pelagic Fisheries of the Western

App-26
emphasizes that, during the comment period and at
Council meetings prior to the adoption of the 2016
LVPA Rule, “dozens of American Samoans objected to
the new rule as a violation of the Deeds, including
many highly respected American Samoa officials” such as those mentioned supra, and alia fishermen.
[Mem. in Supp. of Motion at 6-7 (citing AR E372, E270,
E113, E350-65, E85, G2135-36).] In fact, the Council
of Treaty Chiefs of Tutuila, Aunu’uand Manu’a and
the American Samoa Council of District Governors
submitted a joint resolution, dated June 17, 2014
(“Joint Resolution”).8 [AR at E350-65.] Plaintiff
asserts that, despite this, Defendants failed to
consider how the rule would affect American Samoa’s
cultural practices.
Plaintiff argues that the Deeds of Cession are
among the applicable laws that a regulation must
comply with. Moreover, the deeds are treaties that are
binding upon the United States and its agencies, and
they have been codified as federal law. Plaintiff urges
this Court to conclude that the Deeds of Cession
protect American Samoans’ cultural fishing rights
because the Deeds of Cession protect their rights and

Pacific Region - dated December 1, 2003 (“Amendment 11”).
AR at H188-210 is Appendix I to Amendment 11, titled
Fishery Impact Statement.
8

The Joint Resolution was apparently prepared when the
Council was considering reducing the size of the LVPA in
2014.

App-27
customs, even if fishing is not expressly mentioned in
the deeds.
Plaintiff argues that Defendants failed to consider
the cultural practices of American Samoa’s local alia
fisherman and the effect that the rule would have on
American Samoan culture because their fishing rights
would be diminished. Plaintiff emphasizes that the
reduction of the LVPA from fifty to twelve nautical
miles is significant, and there is no indication that the
measure would benefit local fisherman or the cultural
practices of American Samoans. Plaintiff states that
fishing is an “integral part of the American Samoan
culture,” and Plaintiff argues that the 2016 LVPA
Rule will harm the alia fishermen and American
Samoan cultural practices “by allowing large vessels
equipped with technically advanced boats and fishing
gear, as well as increased manpower, to fish in the
same waters as the alia fishermen.” [Mem. in Supp. of
Motion at 13.] Plaintiff therefore argues that the 2016
LVPA Rule is arbitrary and capricious because it is
inconsistent with the federal government’s duty to
protect the customary practices of American Samoa,
as the government agreed to do in the Deeds of
Cession.
Plaintiff also argues that the 2016 LVPA Rule
violates the MSA because it is a FMP and a regulation,
and it was adopted without considering applicable
federal law. It is arbitrary and capricious because
Defendants failed to consider an important aspect of
the problem - i.e., the cultural and customary practices
protected in the Deeds of Cession.

App-28
As to Count II, Plaintiff asserts that the Deeds of
Cession establish a trust relationship between the
United States and American Samoa, and therefore the
United States has a fiduciary duty to American
Samoa. Plaintiff argues that the United States
breached its fiduciary duty to American Samoa when
Defendants adopted the 2016 LVPA Rule.
III.

Counter-Motion9

Defendants first argue that all of Plaintiff’s claims
fail because Plaintiff lacks standing. Defendants’
primary argument regarding the standing issue is
that Plaintiff has not established that it has suffered
any injury in fact because the Deeds of Cession do not
reserve cultural fishing rights in federal waters
because the deeds refer to land and property. See, e.g.,
Corp, of Presiding Bishop of Church of Jesus Christ of
Latter-Day Saints v. Hodel, 830 F.2d 374, 386 (D.C.
Cir. 1987).
If this Court concludes that Plaintiff has standing,
Defendants argue that the Court should rule in their
favor on the merits of each claim. Defendants argue
that the United States owns and has sovereign
authority over the waters in question under the
paramountcy doctrine and the Territorial Submerged
Lands Act (“TSLA”), 15 U.S.C. §§ 1704-08. Defendants

9

Defendants argue that Defendant Kitty Simmonds is not a
proper party in this case. [Counter-Motion at 14 n.7.] This
issue is not properly before this Court because Defendants
should have raised it in a motion to dismiss rather than in a
footnote within their motion seeking summary judgment.

App-29
also assert that NMFS complied with the
requirements of Coastal Zone Management Act
(“CZMA”), 16 U.S.C. §§ 1451-66, in promulgating the
2016 LVPA Rule.
As to the alleged violations of the MSA,
Defendants argue that the Deeds of Cession do not
constitute “any other applicable law” that NMFS was
required to ensure the proposed rule was consistent
with. Further, even assuming that the Deeds of
Cession do protect American Samoan cultural fishing
rights and that the deeds constituted “any other
applicable law” for purposes of the MSA, Defendants
argue that NMFS adequately considered and
responded to the concerns raised about the rule’s
impact on American Samoan fishing communities.
Defendants assert that the 2016 LVPA Rule was
ultimately adopted because the 2002 LVPA Rule was
no longer necessary or appropriate under the MSA.
Comment 3: Several commenters said
that the large longline vessels are all
vessels of the United States and should
have the same right to fish in American
Samoa waters as the small alia vessels.
Response: NMFS agrees that all
federally permitted American Samoa
longline vessels are vessels of the United
States. Furthermore, NMFS believes
that all fishing sectors should be treated
equally, unless there is a legitimate
conservation and management need to
treat them differently. Here, NMFS is
approving an action that exempts large

App-30
longline vessels from an area that is
currently restricted to them, but open to
other fishing vessels, because the
conditions that originally led to the
restriction for the large longline vessels
no longer exists. Specifically, NMFS and
the Council established the LVPA in
2002 to separate small longline vessels
from large longline and purse seine
vessels, and reduce the potential for gear
conflict and catch competition between
small and large vessels. At that time, the
American Samoa longline fishery
consisted of about 40 small alia (small
fishing catamarans less than 50 ft long)
and 25 large conventional mono-hull
longline vessels. However, since 2006,
fewer than three alia have been
operating on a regular basis; and of
these, only one was active in 2013
and 2014.
As described in the EA, fewer than 50
other small commercial and recreational
vessels fish for yellowfin and skipjack
tunas and billfishes in nearshore waters
and on offshore banks around American
Samoa. Therefore, even accounting for
the potential for competition with pelagic
troll and recreational vessels, the
conditions that led to the establishment
of the LVPA in 2002 no longer support

App-31
the full extent (30-50 nm) of the original
prohibited area for longlining.
....
2016 LVPA Rule, 81 Fed. Reg. at 5260 (emphasis
added). As to the factual evidence that was the basis
for the 2016 LVPA Rule, Defendants argue that
Plaintiff has not shown that NMFS failed to consider
contradictory evidence or failed to articulate a rational
basis for the rule.
Defendants contend that Count II is barred by the
United States’ sovereign immunity, and Plaintiff
either abandoned or waived Count IV by failing to
move for summary judgment.
STANDARD
The parties agree that this Court’s review of the
2016 LVPA Rule is pursuant to the Magnuson-Stevens
Act. When reviewing a regulation promulgated
pursuant to the Magnuson- Stevens Act, a district
court “shall only set aside any such regulation or
action on a ground specified in section 706(2)(A), (C),
or (D) of” the APA. 16 U.S.C. § 1855(f)(1)(B). The APA
provides, in relevant part:
To the extent necessary to decision and
when presented, the reviewing court
shall decide all relevant questions of law,
interpret constitutional and statutory
provisions, and determine the meaning
or applicability of the terms of an agency
action. The reviewing court shall-

App-32
....
(2) hold unlawful and set aside agency
action, findings, and conclusions found to
be(A) arbitrary, capricious, an
abuse of discretion, or
otherwise not in accordance
with law;
(B)
contrary
to
constitutional right, power,
privilege, or immunity;
(C) in excess of statutory
jurisdiction, authority, or
limitations, or short of
statutory right; [and]
(D) without observance of
procedure
required
by
law[.]
5 U.S.C. § 706. Thus, the Ninth Circuit has stated:
In reviewing regulations promulgated
under the [Magnuson-Stevens Act], “our
only function is to determine whether the
Secretary [of Commerce] ‘has considered
the relevant factors and articulated a
rational connection between the Facts
found and the choice made.’“ Alliance
Against IFQs v. Brown, 84 F.3d 343, 345
(9th Cir. 1996) (quoting Wash. Crab
Producers, Inc, v. Mosbacher, 924 F.2d
1438, 1440-41 (9th Cir. 1990)). “We

App-33
determine only if the Secretary acted in
an arbitrary and capricious manner in
promulgating such regulations.” Alliance
Against IFQs, 84 F.3d at 345. “Under the
APA, we will reverse the agency action
only if the action is arbitrary, capricious,
an abuse of discretion, or otherwise
contrary to law.” Lands Council v.
Powell, 379 F.3d 738, 743 (9th Cir. 2004),
amended by 395 F.3d 1019 (9th Cir.
2005).
Fishermen’s Finest, Inc, v. Locke, 593 F.3d 886, 894
(9th Cir. 2010) (some alterations in Fishermen’s
Finest). “Even when an agency explains its decision
with ‘less than ideal clarity,’“ the Court must uphold
the action “if the agency’s path may be reasonably
discerned.” San Luis & Delta-Mendota Water Auth. v.
Locke, 776 F.3d 971, 994 (9th Cir. 2014) (citation
omitted). This deference is “at its highest where a
court is reviewing an agency action that required a
high level of technical expertise.” Id.
The Ninth Circuit has stated that:
“Review under the arbitrary and
capricious standard is narrow, and we do
not substitute our judgment for that of
the agency.” Ecology Ctr. v. Castaneda,
574 F.3d 652, 656 (9th Cir. 2009)
(alterations omitted) (quoting Lands
Council v. McNair (Lands Council II),
537 F.3d 981, 987 (9th Cir. 2008) (en
banc), overruled on other grounds by

App-34
Winter v. Natural Res. Def. Council, Inc.,
555 U.S. 7, 20, 129 S. Ct. 365, 172 L. Ed.
2d 249 (2008) ) (internal quotation marks
omitted). “Rather, we will reverse a
decision as arbitrary and capricious only
if the agency relied on factors Congress
did not intend it to consider, entirely
failed to consider an important aspect of
the problem, or offered an explanation
that runs counter to the evidence before
the agency or is so implausible that it
could not be ascribed to a difference in
view or the product of agency expertise.”
Id. (quoting Lands Council II, 537 F.3d at
987) (internal quotation marks omitted).
Cascadia Wildlands v. Bureau of Indian Affairs, 801
F.3d 1105, 1110 (9th Cir. 2015). This showing is a
“heavy burden.” Managed Pharmacy Care v. Sebelius,
716 F.3d 1235, 1244 (9th Cir. 2013). The arbitrary and
capricious standard
requires the [agency] to articulate [] a
rational connection between the facts
found and the choice made. [We] review
the record to ensure that agency
decisions are founded on a reasoned
evaluation of the relevant factors, and
may not rubberstamp . . . administrative
decisions that [are] inconsistent with a
statutory mandate or that frustrate the
congressional policy underlying a statute
....

App-35
Sierra Club v. U.S. E.P.A., 671 F.3d 955, 961 (9th Cir.
2012) (some alterations in Sierra Club) (citations and
quotation marks omitted).
DISCUSSION
I.

Judicial Notice

As noted supra, Defendants ask this Court to take
judicial notice of the contents of the Convention of
1899 and the Deeds of Cession, and Plaintiff does not
oppose the RJN.
A court “must take judicial notice if a party
requests it and the court is supplied with the
necessary information.” Fed. R. Evid. 201(c)(2). “The
court may judicially notice a fact that is not subject to
reasonable dispute because it . . . can be accurately
and readily determined from sources whose accuracy
cannot reasonably be questioned.” Rule 201(b)(2). The
Convention of 1899 and the Deeds of Cession are
historical documents that are subject to judicial
notice. See, e.g. , United States v. States of Louisiana,
et al., 363 U.S. 1, 12-13 (1960) (“Both sides have
presented in support of their respective positions a
massive array of historical documents, of which we
take judicial notice.”). Further, the versions of the
documents submitted with the RJN were obtained
from the American Samoa Bar Association, which is a
source whose accuracy cannot reasonably be
questioned regarding the authenticity of these
documents.
This
Court
therefore
GRANTS
Defendants’ RJN.

App-36
II.

Standing

At the outset, this Court must address
Defendants’ argument that Plaintiff lacks standing to
pursue the claims in this case. The Ninth Circuit has
stated that, in order to prove Article III standing, a
plaintiff must establish:
(1) the existence of an injury-in-fact that
is concrete and particularized, and actual
or imminent; (2) the injury is fairly
traceable to the challenged conduct; and
(3) the injury is likely to be redressed by
a favorable court decision. Salmon
Spawning & Recovery Alliance v.
Gutierrez, 545 F.3d 1220, 1224-25 (9th
Cir. 2008) (citing Lujan v. Defenders of
Wildlife, 504 U.S. 555, 560-61, 112 S. Ct.
2130, 119 L. Ed. 2d 351 (1992)).
Ctr. for Biological Diversity v. U.S. Fish & Wildlife
Serv., 807 F.3d 1031, 1043 (9th Cir. 2015). As to
Plaintiff’s claim that it has parens patriae standing:
A claim of parens patriae standing is
distinct from an allegation of direct
injury. See Wyoming v. Oklahoma, 502
U.S. 437, 448-449, 451, 112 S. Ct. 789,
117 L. Ed. 2d 1 (1992). Far from being a
substitute for Article III injury, parens
patriae actions raise an additional hurdle
for a state litigant: the articulation of a
“quasisovereign interest” “apart from
the interests of particular private
parties.” Alfred L. Snapp & Son, Inc. v.

App-37
Puerto Rico ex rel. Barez, 458 U.S. 592,
607, 102 S. Ct. 3260, 73 L. Ed. 2d 995
(1982) (emphasis added). Just as an
association suing on behalf of its
members must show not only that it
represents the members but that at least
one satisfies Article III requirements, so
too a State asserting quasi-sovereign
interests as parens patriae must still
show that its citizens satisfy Article III.
Focusing on [the plaintiff state]’s
interests as quasi-sovereign makes the
required showing here harder, not easier.
The Court, in effect, takes what has
always been regarded as a necessary
condition for parens patriae standing —
a quasi-sovereign interest — and
converts it into a sufficient showing for
purposes of Article III.
Massachusetts v. E.P.A., 549 U.S. 497, 538 (2007)
(emphases in Massachusetts) (some citations
omitted). A “quasi-sovereign interest” is a “public or
governmental interest[] that concern[s] the state as a
whole.” Id. at 520 n.17 (citations and quotation marks
omitted).
The long-standing cultural significance of fishing
in American Samoa is well recognized. During the
rule-making process that led to the adoption of the
2002 LVPA Rule, the Council stated:
American Samoans are among the last
full-blooded
Polynesians.
Their

App-38
dependence on fishing undoubtedly goes
back as far as the peopled history of the
Samoa islands, about 3,500 years ago.
Many aspects of the culture have
changed in contemporary times but
Samoans have retained a traditional
social system that continues to strongly
influence and depend upon the culture of
fishing. . . .
Traditional Samoan values still exert a
strong influence on when and why people
fish, how they distribute their catch and
the meaning of fish within the society.
When distributed, fish and other
resources move through a complex and
culturally embedded exchange system . .
..
....
American Samoa has a long history of
harvesting pelagic fish species, especially
skipjack and small yellowfin tuna, which
has special significance in customary
exchanges. Due to a rapidly growing
population and overexploitation of some
inshore seafood resources, the American
Samoa community is becoming even
more dependent on pelagic fish for food,
employment and income from fisheries
and for perpetuation of fa’a Samoa
(Samoan cultural heritage and way of

App-39
life).
Despite
increasing
commercialization,
the
small-scale
pelagic fishery continues to contributes
[sic] strongly to the cultural identity and
social cohesion of American Samoa. The
role of pelagic fish in meeting cultural
obligations is at least as important as the
contributions made to nutritional or
economic well-being of island residents.
[AR at F072-73 (citations omitted) .10] The cultural
exchange system for food and other resources supports
“extended families and traditional leaders.” [AR at
H203.] Alia fishermen are also expected to contribute
fish for ceremonial purposes. [Id. at H204.] The 2002
LVPA Rule established the LVPA zone “for the sole
use of local alia (traditional fishing boat) fishermen
and thereby [made it] available to the indigenous
population of American Samoa to nurture and practice
traditional methods of fishing with canoes, alias and
other traditional vessels, an art that is fast
disappearing.” [AR at E271 (page 2 of official comment
on the proposed 2016 LVPA Rule by Lolo M. Moliga,
Governor of American Samoa).]

10

AR at F053-145 is the Council’s Prohibition on fishing for
pelagic management unit species within closed areas around
the islands of American Samoa by vessels more than 50 feet
in length - Framework Measure under the Fishery
Management Plan for the Pelagic Fisheries of the Western
Pacific Region, dated November 1, 2000 and revised
December 4, 2001.

App-40
This Court FINDS that, in light of the longstanding significance of fishing to the fa’a Samoa,
Plaintiff has a quasi-sovereign interest in protecting
the American Samoan’s cultural fishing rights to
preserve their culture for the benefit of the American
Samoan people as a whole. This is a separate and
distinct interest from the interests of individual
American Samoans who would arguably have
standing to challenge the 2016 LVPA Rule because the
rule allegedly impairs their ability to fish for cultural,
and other, purposes.
The record includes comments to the proposed
2016 LVPA Rule addressing the effect that the
reduction in the size of the LVPA would have on the
American Samoan’s fishing practices:
By allowing large fishing vessels to
invade the LVPA, the Council’s proposed
action threatens to rob the people of
these islands of the opportunity to
nurture and practice their culture, let
alone access the natural resources
surrounding their islands. The large long
liners, with fishing lines extending many
miles present a real risk of entanglement
with fishing equipment of alia fishermen.
These vessels, with larger catching
capacity, could easily deplete the fishing
stock; and their presence in these waters
will likely discourage local fishermen
from practicing traditional fishing
methods for fear of being run over by the
larger long liners.

App-41
[AR at E271-72 (the Governor’s Official Comment).]
[T]he influx of any, let alone 23 longline
vessels owned by persons who are not
beneficiaries of the [Deeds of Cession],
will surely undermine the treatied
peoples’ property interests in the marine
waters and resources within the present
LVCA-50 [sic], and create unbalanced
competition that will further threaten
the collapse of the traditional alia fishing
community. . . .
[AR at E353 (page 4 of the Joint Resolution).]
In light of this and other similar evidence, this
Court FINDS that Plaintiff has demonstrated an
injury-in-fact - the loss of the American Samoan
cultural fishing practice - that is fairly traceable to the
adoption of the 2016 LVPA Rule. Further, this Court
FINDS that: the injury is concrete, particularized, and
sufficiently imminent for purposes of Article III
standing; and the imminent injury is likely to be
redressed by a decision in Plaintiff’s favor, because
invalidating the 2016 LVPA Rule would reinstate the
LVPA established in the 2002 LVPA Rule.
Because this Court has found that Plaintiff has
demonstrated both a quasi-sovereign interest and all
three elements of Article III standing, this Court
CONCLUDES that Plaintiff has parens patriae
standing to challenge the 2016 LVPA Rule in the
instant case. This Court DENIES Defendants’
Counter-Motion as to Defendants’ request for

App-42
summary judgment on the ground that Plaintiff lacks
standing.
This Court now turns to the merits of Plaintiff’s
claims.
III.

Count I

Count I alleges that the 2016 LVPA Rule is
invalid because NMFS failed to ensure that the rule
was consistent with the Deeds of Cession.
A.

Paramountcy Doctrine, TSLA, and
CZMA

At the outset, this Court acknowledges that
Defendants assert that the United States has
authority over the waters at issue in this case
pursuant to the paramountcy doctrine, the TSLA, and
the CZMA. This Court also recognizes that at least
some American Samoans have taken the position that
American Samoa owns those waters. See, e .q. , AR at
E353 (Joint Resolution page 4) (asserting that the
Deeds of Cession were “understood by the original
treaty signers, among other things, to include the
guaranteed right of continued ownership and
unhindered access of the treaty protected people to
the vast marine waters ceded for their exclusive
benefit” (emphases added)). However, the dispute over
the ownership of the waters is not before this Court in
this case. This case addresses only the validity of the
2016 LVPA Rule, which reduced the LVPA established
in the 2002 LVPA Rule at approximately fifty nautical
miles to twelve nautical miles. The issue before this
Court in Count I is whether NMFS violated the MSA
by failing to ensure that the adoption of the 2016

App-43
LVPA Rule was consistent with the Deeds of Cession.
This Court therefore concludes that it does not need to
address Defendants’ arguments regarding the
paramountcy doctrine, the TSLA, and the CZMA.
B.

MSA - 16 U.S.C. § 1854(c)(7)

As previously stated, the MSA requires that any
final regulation promulgated “be consistent with the
fishery management plan, with the national
standards and other provisions of this chapter, and
with any other applicable law.” 16 U.S.C. § 1854(c)(7).
The MSA does not contain a definition of what is
considered “any other applicable law,” nor is this
Court aware of any case law addressing the issue. The
NMFS Operational Guidelines for the MagnusonStevens Fishery Conservation and Management Act
Fishery Management Process (Sept. 30, 2015),
http://www.fisheries.noaa.gov/sfa/laws_policies/opera
tional_ guidelines/index.html (“NMFS Operational
Guidelines”), states:
Section 303(a)(1)(C) of the MSA requires
federal fishery management plans to be
consistent with other applicable laws.
NMFS must also review Councilrecommended FMPs, amendments, and
regulations to determine whether they
are consistent with other applicable law.
These other laws impose additional
procedural, substantive, and timing
requirements on the decision
process. The particular laws that apply
to any given action must be assessed on
a case-by-case basis. This section

App-44
provides an overview of the other
applicable laws and executive orders that
most frequently apply, including but not
limited to the:
•
•
•
•
•
•
•
•
•
•

Administrative Procedure Act
Coastal Zone Management Act
Endangered Species Act
Executive Orders 12630, 12866, 12898,
13089, 13132, 13158, 13175, 13272
Information Quality Act
Marine Mammal Protection Act
National Environmental Policy Act
National Marine Sanctuaries Act
Paperwork Reduction Act
Regulatory Flexibility Act[.]

NMFS
Operational
Guidelines,
Appendix
2
(Description of the Fishery Management Process) at 910 (emphasis added). The Deeds of Cession were
accepted, ratified, and confirmed in 48 U.S.C. § 1661.
Although they are not among the frequently applied
“other applicable law,” they are federal law and they
constitute “any other applicable law” for purposes of
§ 1854(c)(7) if they imposed additional procedural or
substantive requirements on the rule-making process
that culminated in the 2016 LVPA Rule.11
Defendants argue that the Deeds of Cession did
not impose additional requirements on the rule11

Plaintiff’s challenge to the 2016 LVPA Rule does not present
timing issues.

App-45
making process at issue in this case because the deeds
do not address offshore fishery resources. Defendants
assert that the deeds are evidence “Congress’ policy of
respecting Samoan traditions concerning land
ownership.” Hodel, 830 F.2d at 386 (emphasis added).
Although the D.C. Circuit’s opinion in Hodel and the
underlying district court order, 637 F. Supp. 1398
(D.D.C. 1986), appear to be the only federal cases
addressing the Deeds of Cession, these decisions are
not binding on this Court. Moreover, Hodel involved a
dispute arising from the High Court of American
Samoa’s decision invalidating a 1953 deed issued
when the appellant purchased land in American
Samoa. 830 F.2d at 376. Only issues of land ownership
were before the D.C. Circuit in that case; the issue of
whether the Deeds of Cession preserve more than
American Samoan “traditions concerning land
ownership” was not before the court. Thus, Hodel does
not support Defendants’ position that the Deed of
Cession only require the United States to preserve
American Samoan traditions concerning land
ownership.
The Cession of Tutuila and Aunu’u requires the
United States to “respect and protect the individual
rights of all people dwelling in Tutuila to their lands
and other property in said District.” [RUN,
Attachment at 4, H 2 (emphasis added).] The use of
the word “lands” and the word “property” indicates
that “property” is not limited to land/real property.
Further, paragraph 2 goes on to state that, if the
United States government “require[s] any land or
any other thing for Government uses, the
Government may take the same upon payment of a

App-46
fair consideration for the land, or other thing, to those
who may be deprived of their property on account of
the desire of the Government.” [Id. (emphases added).]
The use of the word “thing” as distinct from “property”
indicates that “property” is not limited to tangible
property - such as, for example, a right of access
necessary to engage in certain cultural practices.
The Cession of Manu’a Islands expressly
recognizes “the rights of the Chiefs in each village and
of all people concerning their property according to
their customs.” [Id. at 6 (emphasis added).] The
Cession of Manu’a Islands does not include the same
references to lands, property, and things, but it is clear
from the document as a whole that it is intended to be
read together with, and consistently with, the Cession
of Tutuila and Aunu’u.12 This Court therefore
concludes that the term “property” in the Cession of
Manu’a Islands has the same meaning as the term
12

The Cession of Manu’a Islands describes inter alia, the 12
Cession of Tutuila and Aunu’uand states:
And Whereas, Tuimanu’a and his chiefs, being content and
satisfied with the justice, fairness, and wisdom of the
government as hitherto administered by the several
Commandants of the United States Naval Station, Tutuila,
and the officials appointed to act with the Commandant, are
desirous of placing the Islands of Manu’a hereinafter
described under the full and complete sovereignty of the
United States of America to enable said Islands, with Tutuila
and Aunu’u, to become a part of the territory of said United
States[.]
[RUN, Attachment at 6.]

App-47
“property” in the Cession of Tutuila and Aunu’u.
Further, reading the deeds together, the “individual
rights of all people dwelling in Tutuila to their lands
and other property” referred to in the Cession of
Tutuila and Aunu’u includes customary uses of the
people’s property referred to in the Cession of Manu’a
Islands.
It is true that the Deeds of Cession do not
expressly state that “property” includes offshore
fishery resources, nor do the deeds identify fishing as
one of the protected customary practices. However,
those facts are not dispositive. In Parravano v.
Babbitt, the Ninth Circuit addressed the following
issue:
Under the Magnuson Act, the Secretary
of Commerce may issue emergency
regulations to achieve consistency with
the national standards set forth in the
Act and “any other applicable law.” 16
U.S.C. §§ 1853(a)(1)(C), 1854(a)(1)(B).
Indian fishing rights that exist under
federal law may constitute “any other
applicable law.” Washington State
Charterboat Ass’n v. Baldrige, 702 F.2d
820, 823 (9th Cir. 1983), cert, denied, 464
U.S. 1053, 104 S. Ct. 736, 79 L. Ed. 2d
194 (1984) (Northwest Indian treaty
fishing
rights
constitute
“other
applicable law” under Magnuson Act).
Therefore, the question before this court
is whether the Hoopa Valley and Yurok
Tribes retain federally reserved fishing

App-48
rights that constitute “any other
applicable law” within the meaning of
the Magnuson Act....
70 F.3d 539, 544 (9th Cir. 1995). The Ninth Circuit
ultimately held that the tribes did have fishing rights
which constituted “any other applicable law,” even
though the executive orders establishing the tribes’
reservation did not expressly identify fishing rights.
[T]he 1876 and 1891 executive orders
first created and then extended a
reservation “for Indian purposes” along
the main course of the Klamath River.
Donnelly [v. United States] , 228 U.S.
[243,] 253, 33 S. Ct. [449,] 451 [(1913)].
We have never encountered difficulty in
inferring that the Tribes’ traditional
salmon fishing was necessarily included
as one of those “purposes.” See United
States v. Wilson, 611 F. Supp. 813, 81718 (N.D. Cal. 1985), rev’d on other
grounds sub. now., United States v.
Eberhardt, 789 F.2d. 1354 (9th Cir.
1986). Our interpretation accords with
the general understanding that hunting
and fishing rights arise by implication
when a reservation is set aside for Indian
purposes. See Menominee Tribe v.
United States, 391 U.S. 404, 406, 88 S.
Ct. 1705, 1707, 20 L. Ed. 2d 697 (1968);
Pacific Coast [Fed’n of Fishermen’s
Ass’n, Inc, v. Sec’v of Commerce], 494 F.

App-49
Supp. [626,] 632 [(N.D. Cal. 1980)]. Thus,
we reject
Parravano’s novel theory that ambiguity
in the phrase “for Indian purposes”
should be resolved against the Tribes.
Id. at 545-46. The cited portion of Menominee Tribe
stated:
Nothing was said in the 1854 treaty
about hunting and fishing rights. Yet we
agree with the Court of Claims that the
language “to be held as Indian lands are
held” includes the right to fish and to
hunt. The record shows that the lands
covered by the Wolf River Treaty of 1854
were selected precisely because they had
an abundance of game. See Menominee
Tribe of Indians v. United States, 95 Ct.
Cl. 232, 240—241 (1941). The essence of
the Treaty of Wolf River was that the
Indians were authorized to maintain on
the new lands ceded to them as a
reservation their way of life which
included hunting and fishing.
391 U.S. at 406 (footnotes omitted).
Defendants are correct when they emphasize that
American Samoa is a territory, not a Native American
tribe, but Plaintiff does not rely on Parravano because
Plaintiff is asserting that the federal courts should
treat American Samoa - or United States territories in
general - in the same manner that they treat Native

App-50
American tribes. Plaintiff merely relies on Parravano
for the proposition that cultural practices can be
protected by inference. Like the executive orders that
established the reservation in Parravano and the
treaty granting the reservation in Menominee Tribe,
neither of which expressly referred to the specific
traditional practice at issue in the case, the Deeds of
Cession preserved the American Samoans’ right to use
their “property” to continue their customary practices,
but the deeds do not specifically identify those
customary practices. The American Samoans are an
island people and, as previously stated, their history
of fishing practices goes back thousands of years, i.e.
their fishing customs were well- established at the
time of cession. Pursuant to Parravano, this Court
CONCLUDES that the American Samoans’ right to
use their “property” to continue their customary
fishing practices is reserved by implication in the
Deeds of Cession.
Because the Deeds of Cession require the United
States to respect the American Samoans’ customary
fishing practices, this Court CONCLUDES that the
deeds imposed additional procedural or substantive
requirements on the rule-making process that
culminated in the 2016 LVPA Rule. Therefore, the
Deeds of Cession constitute “any other applicable
law,” which the 2016 LVPA Rule must be consistent
with pursuant to § 1854(c) (7).
Defendants argue that NMFS did consider the
American Samoans’ interest in cultural fishing
practices prior to adopting the 2016 LVPA Rule.
Defendants emphasize that NMFS considered the

App-51
impact on American Samoan fishing, and both the
2016 LVPA Rule and the 2016 LVPA EA state that
NMFS will “annually review[ ] the effects of the 2016
LVPA Rule on catch rates, small vessel participation,
and sustainable fisheries development initiatives.”
[Counter-Motion at 28 (citing AR at Al, 125-35).]
However, the consideration of American Samoan
cultural fishing practices in general is not enough.
This Court has concluded that the Deeds of Cession
require the United States to preserve American
Samoan cultural fishing practices and that the deeds
constitute “any other applicable law” for purposes of
the MSA. Thus, the 2016 LVPA Rule should not have
been adopted without a determination that the
proposed rule was consistent with, inter alia, the
Deeds of Cession.
Based upon Defendants’ positions in this case, it
is clear that NMFS did not consider whether the
proposed rule that eventually became the 2016 LVPA
Rule was consistent with the Deeds of Cession.
Because NMFS failed to consider whether the
proposed rule was consistent with the Deeds of
Cession, it “entirely failed to consider an important
aspect of the problem,” and therefore the adoption of
the 2016 LVPA Rule was arbitrary and capricious.13

13

This Court does not need to address Defendants’ argument
that the changed circumstances between 2002 and 2016
warranted the reduction in the size of the LVPA. Even
accepting Defendants’ characterization of the evidence before
the NMFS, it was still required to consider that evidence in
light of the United States’ obligation under the Deeds of

App-52
See Cascadia Wetlands, 801 F.3d at 1110. This Court
CONCLUDES that the 2016 LVPA Rule is invalid and
GRANTS the Motion as to Plaintiff’s request for
summary judgment on Count I. In light of this Court’s
ruling, this Court DENIES the Counter-Motion as to
Defendants’ request for summary judgment on Count
I.
IV.

Remaining Claims

Because this Court has ruled in Plaintiff’s favor
as to Count I and concluded that the 2016 LVPA Rule
is invalid, this Court does not need to reach the merits
of Counts II, III, and IV, all of which are essentially
alternate theories of why the 2016 LVPA Rule is
invalid. This Court therefore DISMISSES Counts II,
III, and IV as MOOT, and DENIES the remaining
portions of Plaintiff’s Motion and Defendants’
Counter-Motion.14
CONCLUSION
On the basis of the foregoing, Plaintiff’s Motion for
Summary Judgment, filed July 25, 2016, is HEREBY
GRANTED IN PART AND DENIED IN PART.
Specifically, the Court GRANTS Plaintiff’s Motion as
to Count I, insofar as this Court ORDERS that the
Final rule regarding Pacific Island Pelagic Fisheries;
Cession to protect American Samoan cultural fishing
practices.
14

Because this Court has dismissed Count IV as moot, this
Court does not need to address Defendants’ argument that
Plaintiff abandoned or waived Count IV by failing to move for
summary judgment on that claim.

App-53
Exemption for Large U.S. Longline Vessels to Fish in
Portions of the American Samoa Large Vessel
Prohibited Area, 81 Fed. Reg. 5619 (Feb. 3, 2016), be
VACATED AND SET ASIDE.
Further, the remaining claims, Counts II, III, and
IV, are HEREBY DISMISSED AS MOOT. Plaintiff’s
Motion is therefore DENIED AS MOOT as to
Plaintiff’s request for summary judgment on Counts
II, III, and IV. Defendants’ Counter-Motion for
Summary Judgment is HEREBY DENIED in its
entirety.
IT IS SO ORDERED.
DATED AT HONOLULU, HAWAII, March 20,
2017.
/s/ Leslie E. Kobayashi
Leslie E. Kobayashi
United States District Judge

App-54
Appendix C
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII
________________
Civil 16-00095 LEK-KJM
________________
TERRITORY OF AMERICAN SAMOA,
Plaintiff,
v.
NATIONAL MARINE FISHERIES SERVICE;
UNITED STATES DEPARTMENT OF COMMERCE;
NATIONAL OCEANIC AND ATMOSPHERIC
ADMINISTRATION; PENNY PRITZKER,
SECRETARY OF COMMERCE; KITTY SIMONDS,
EXECUTIVE DIRECTOR OF WESTERN PACIFIC REGIONAL
FISHERY MANAGEMENT COUNCIL; EILEEN SOBECK,
ASSISTANT ADMINISTRATOR FOR FISHERIES; MICHAEL
D. TOSATTO, REGIONAL ADMINISTRATOR FOR NOAA’S
NATIONAL MARINE FISHERIES SERVICE PACIFIC
ISLANDS REGIONAL OFFICE,
Defendants.
________________
Filed: Aug. 10, 2017
________________
ORDER DENYING DEFENDANTS' MOTION
FOR RECONSIDERATION AND TO AMEND
THE COURT'S JUDGMENT (DKT. NO. 48)

App-55
PURSUANT TO LOCAL RULE 60.1 AND
FEDERAL RULE OF CIVIL PROCEDURE 59(E)
On May 9, 2017, Defendants National Marine
Fisheries
Service
(“NMFS”);
United
States
Department of Commerce (“DOC”); National Oceanic
and Atmospheric Administration (“NOAA”); Wilbur
Ross, in Ins official capacity as the Secretary of
Commerce; Kitty Simonds, in her official capacity as
Executive Director of the Western Pacific Regional
Fishery Management Council (“the Council”); Samuel
D. Rauch, in Iris official capacity as Acting Assistant
Administrator for Fisheries. NMFS; and Michael D.
Tosatto, in his official capacity as Regional
Administrator, NMFS Pacific Islands Regional Office
(all collectively, “Defendants”) filed their “Motion for
Reconsideration and to Amend the Court’s Judgment
(Dkt. No. 48) Pursuant to Local Rule 60.1 and Federal
Rule of Civil Procedure 59(e)” (“Motion for
Reconsideration”). [Dkt. no. 49.] Plaintiff Territory of
American Samoa (“Plaintiff’) filed its memorandum in
opposition on May 25, 2017, and Defendants filed their
reply on June 8, 2017. [Dkt. nos. 56, 57.]
The Court has considered the Motion for
Reconsideration as a non-hearing matter pursuant to
Rule LR7.2(e) of the Local Rules of Practice of the
United States District Court for the District of Hawai’i
(“Local Rules”). On July 31, 2017, this Court issued an
entering order informing the parties that the Motion
for Reconsideration was denied (“7/31/17 EO Ruling”).
[Dkt. no. 59.] The instant order supersedes the 7/31/17
EO
Ruling,
and
Defendants’
Motion
for

App-56
Reconsideration is hereby denied for the reasons set
forth below.
BACKGROUND
On March 20, 2017, this Court issued its Order
Granting in Part and Denying in Part Plaintiffs
Motion for Summary Judgment and Denying
Defendants’ Counter-Motion for Summary Judgment
(“3/20/17 Order”).1 [Dkt. no. 45.2] This Court concluded
that the NMFS, NOAA, and DOC “Final rule
regarding Pacific Island Pelagic Fisheries; Exemption
for Large U.S. Longline Vessels to Fish in Portions of
the American Samoa Large Vessel Prohibited Area.”
(“LVPA” and “2016 LVPA Rule”) issued on February
3, 2016,3 was invalid because NMFS failed to consider
whether the proposed rule was consistent with the
Deeds of Cession.4 3/20/17 Order, 2017 WL 1073348,

1

Plaintiff filed its Motion for Summary Judgment on July 25,
2016 (“Plaintiff's Motion”), and Defendants filed a CounterMotion for Summary Judgment on October 24, 2016
(“Counter-Motion,” and collectively “Motions for Summary
Judgment”). [Dkt. nos. 23, 28.] The hearing on the Motions
for Summary Judgment was held on February 13, 2017.
[Minutes, filed 2/13/17 (dkt. no. 40).]

2

The 3/20/17 Order is also available at 2017 WL 1073348.

3

The 2016 LVPA Rule is available at 81 Fed. Reg. 5619.

4

The “Deeds of Cession” refer to the Tutuila and Aunu’u Deed
of Cession, dated April 17, 1900, and the Manu'a Deed of
Cession, dated July 14, 1904. See 3/20/17 Order, 2017 WL
1073348, at *3.

App-57
at *17. Plaintiffs request for summary judgment on
Count I—which alleged that the 2016 LVPA Rule
violated the Magnuson-Stevens Fishery Conservation
and Management Act (“MSA”)—was granted and the
2016 LVPA Rule was vacated. Plaintiffs’ request for
summary judgment as to Counts II, III, and IV was
denied as moot, and Defendants’ Counter-Motion was
denied in its entirety. Id.
Final judgment was entered on April 11, 2017.
[Dkt. no. 48.] The Motion for Reconsideration followed.
DISCUSSION
I. Applicable Standards
Defendants bring the Motion for Reconsideration
pursuant to Local Rule 60.1 and Fed. R. Civ. P. 59(e).
Local Rule 60.1 states:
Motions
for
reconsideration
of
interlocutory orders may be brought only
upon the following grounds:
(a) Discovery of
material
facts
previously available;

new
not

(b) Intervening change in
law;
(c) Manifest error of law or
fact.
Motions asserted under Subsection (c) of
this rule must be filed and served not
more than fourteen (14) days after the
court’s written order is filed. . . .

App-58
Defendants apparently invoke Local Rule 60.1(a)
because they have submitted a new declaration by
Defendant Tosatto, with exhibits, three of which are
reports of fishery data from 2016. [Motion for
Reconsideration, Decl. of Michael D. Tosatto, Exhs. CE.5] The report that is Exhibit C was issued on April
28, 2017, and the reports that are Exhibits D and E
are revisions of preliminary estimates provided on
March 8, 2017. While these particular reports were
not available to Defendants while this Court was
considering the Motions for Summary Judgment, the
information contained in them was available to
Defendants, at least in some form. Thus, the evidence
presented with the Motion for Reconsideration does
not constitute “new material facts not previously
available,” and the motion cannot be considered
pursuant to Local Rule 60.1(a).
The Motion for Reconsideration alleges that
this Court made manifest errors of law or fact.
Because a motion brought pursuant to Local Rule

5

Exhibit A is a letter dated May 3, 2017 to the Governor of
American Samoa from the Tautai O Samoa Longline &
Fishing Association (“the Association”), stating the
Association's position on a proposal to amend the LVPA to
twenty five miles from shore. While this Court respects the
Association's position, it declines to consider the letter
because the letter is not relevant to the legal issues presented
in the Motion for Reconsideration. Exhibit B is a NMFS and
NOAA Final rule, 70 Fed. Reg. 29646 (May 24, 2005), which
is legal authority that was available to the parties and this
Court while the Motions for Summary Judgment were
pending.

App-59
60.1(c) must be filed within fourteen days after the
filing and service of the court’s order, Defendants’
request for reconsideration pursuant to Local Rule
60.1(c) is untimely. This Court’s order was filed on
March 20, 2017, but Defendants did not file the Motion
for Reconsideration until May 9, 2017.
To the extent the Motion for Reconsideration
relies on Local Rule 60.1, it is denied. Only
Defendants’ arguments based on Rule 59(e) will be
considered.6 Because Rule 59(e) states, “[a] motion to
alter or amend a judgment must be filed no later than
28 days after the entry of the judgment.” Defendants’
Motion for Reconsideration is timely, to the extent it
is based upon Rule 59(e).
Rule 59(e) offers “an extraordinary
remedy, to be used sparingly in the
interests of finality and conservation of
judicial resources.” Carroll v, Nakatani,
342 F.3d 934, 945 (9th Cir. 2003)
(internal quotation marks and citation
omitted). In the Ninth Circuit, a
successful motion for reconsideration
must accomplish two goals. First, “a
motion
for
reconsideration
must
demonstrate some reason why the court
should reconsider its prior decision.” Na
Marno O ‘Aha ‘Ino v, Galiher, 60 F. Supp.

6

This is largely a distinction without a difference because the
standards for reconsideration under Rule 59(e) and
reconsideration under Local Rule 60.1 are the same.

App-60
2d 1058, 1059 (D. Haw. 1999). Second, it
“must set forth facts or law of a strongly
convincing nature to induce the court to
reverse its prior decision.” Id.
Courts have established three
grounds justifying reconsideration: (1) an
intervening change in controlling law; (2)
the availability of new evidence; and (3)
the need to correct clear error or prevent
manifest injustice. Allstate Ins. Co. v.
Herron, 634 F.3d 1101. 1111 (9th Cir.
2011); Mustafa v. Clark County Sch,
Dist., 157F.3d 1169,1178-79 (9th Cir.
1998). The District of Hawaii has
implemented these standards in Local
Rule 60.1.
Mere
disagreement
with
a
previous order is an insufficient basis for
reconsideration. See Leong v, Hilton
Hotels Corp., 689 F. Supp. 1572. 1573 (D.
Haw. 1988) (Kay. J.). In addition, a Rule
59(e) motion for reconsideration may not
present evidence or raise legal
arguments that could have been
presented at the time of the challenged
decision. See Kona Enters., Inc, v. Estate
of Bishop, 229 F.3d 877, 890 (9th Cir.
2000). “Whether or not to grant
reconsideration is committed to the
sound discretion of the court.” Navajo
Nation v. Confederated Tribes and

App-61
Bands of the Yakama Indian Nation, 331
F.3d 1041. 1046 (9th Cir. 2003).
United States ex rel. Atlas Copco Compressors LLC v.
RWT LLC, Civ. No. 16-00215 ACK-KJM. 2017 WL
2986586, at *1-2 (D. Hawai`i July 13, 2017), appeal
filed, No. 17-80147 (9th Cir. July 25. 2017).
II. Defendants’ Arguments
Defendants choose to limit their request for
reconsideration to the issues of standing and remedy.
[Mem. in Supp. of Motion for Reconsideration at 1.]
Defendants first argue that this Court committed
clear error when it concluded that “Plaintiff has
parens patriae standing to challenge the 2016 LVPA
Rule in the instant case.” See 3/20/17 Order, 2017 WL
1073348, at *13. Defendants argue that: neither a
state nor a territory can have parens patriae standing
to sue the United States government; and, even if it
were possible for Plaintiff to have parens patriae
standing, clear error was committed in concluding
that Plaintiff satisfied the required elements for
parens patriae standing.
If
Defendants’
standing
argument
is
unsuccessful. Defendants argue that reconsideration
is still warranted because vacatur of the 2016 LVPA
Rule is an inappropriate remedy. Defendants urge
remand without vacatur of the rule and permission to
complete the rule making process on remand within
fifteen months.
At the outset, the Court is disappointed that
Defendants are raising arguments for the first time in
the Motion for Reconsideration. Plaintiff asserted

App-62
parens patriae standing in response to the CounterMotion’s argument that Plaintiff lacked standing, and
Plaintiff consistently requested vacating the 2016
LVPA Rule in its filings related to the Motions for
Summary Judgment. [Mem. in Supp. of Combined
Reply in Supp. of Pltf.’s Motion & Opp. to CounterMotion (“Combined Reply & Opp.”), filed 12/8/16 (dkt.
no. 35), at 2-7 (arguing that Plaintiff satisfies the
requirements of both parens patriae standing and
Article III standing); Mem. in Supp. of Pltf.’s Motion
at 20 (“the Court should nullify the 2016 LVPA Rule”);
Mem. in Supp. of Pltf.’s Combined Reply & Opp. at 15
(asking this Court to “enjoin Defendants from
implementing the 2016 LVPA until all applicable laws
and the requirements of the [Administrative
Procedures Act (“APA”) ] are fulfilled”).]
Defendants had the opportunity to address the
parens patriae argument, but chose not to do so. See
Defs.’ Reply in Supp. of Counter-Motion (“Defendants’
Reply”), filed 1/19/17 (dkt. no. 39), at 4 (“a response to
Plaintiffs contention that it has parens patriae
standing would be futile”). Defendants disingenuously
state that “[t]he parties did not brief remedy, nor did
the Court invite briefing on remedy.” [Mem. in Supp.
of Motion for Reconsideration at 11.] To the contrary,
Plaintiff clearly sought vacatur. If Defendants
believed that vacatur would be inappropriate, they
had every opportunity to present that argument in
their Counter-Motion and in Defendants’ Reply. No
invitation is needed to address arguments clearly
presented in the submitted briefs.

App-63
It is well-settled that a court will not grant
reconsideration based on evidence and legal
arguments that could have been presented in
connection with the underlying motion. See, e.g., Kona
Enters., 229 F.3d at 890. Thus, outright denial is
permissible since Defendants could have (but did not)
raised both the parens patriae argument and remand
without vacatur argument in the underlying Motions
for Summary Judgment. However, for the sake of
completeness, the merits of Defendants’ arguments
will be addressed.
A. Parens Patriae
Defendants’ position is based on Alfred L,
Snapp & Sons, Inc, v. Puerto Rico (“Snapp”), 458 U.S.
592 (1982). There, the United States Supreme Court
held that the Commonwealth of Puerto Rico had
parens patriae standing to sue the defendants for
alleged violations of federal law. Although the
defendants in Snapp were private defendants, the
Supreme Court noted:
A State does not have standing as parens
patriae to bring an action against the
Federal Government. Massachusetts v,
Mellon, 262 U.S. 447, 485-486, 43 S. Ct.
597, 600-601, 67 L. Ed. 1078 (1923)
(“While
the
State,
under
some
circumstances, may sue in that capacity
for the protection of its citizens (Missouri
v, Illinois, 180 U.S. 208, 241, 21 S. Ct.
331, 343, 45 L. Ed. 497 [(1901)]), it is no
part of its duty or power to enforce their
rights in respect of their relations with

App-64
the Federal Government. In that field it
is the United States, and not the State,
which represents them as parens
patriae”) . . . .
Id. at 610 n. 16. Clearly, a state—or a United States
territory— cannot assert parens patriae in a case like
Snapp. The instant case, however, is not like Snapp.
In Snapp, the Commonwealth of Puerto Rico
“sought declaratory relief with respect to the past
practices of petitioners and injunctive relief requiring
petitioners to conform to the relevant federal statutes
and regulations in the future.” Id. at 598-99. In
contrast, Plaintiff seeks judicial review, pursuant to
the APA and the MSA, of an agency rule. This Court
agrees with Plaintiff that this type of parens patriae
action is possible, as recognized in Massachusetts v.
EPA, 549 U.S. 497 (2007). In Massachusetts v. EPA,
“a group of 19 private organizations filed a rulemaking
petition asking [the Environmental Protection Agency
(“EPA”)] to regulate greenhouse gas emissions from
new motor vehicles under § 202 of the Clean Air Act.”
Id. at 510 (footnote, citation, and internal quotation
marks omitted). The EPA issued an order denying the
rulemaking petition, and the petitioners, “joined by
intervenor States and local governments, sought
review of EPA’s order in the United States Court of
Appeals for the District of Columbia Circuit.” Id. at
511, 514. Noting that only one of the petitioners on
appeal needed to establish standing to permit review,
the Supreme Court focused on Massachusetts’s
interests, and ultimately held that the petitioners on

App-65
appeal had standing. Id. at 519, 526. The Supreme
Court noted:
When a State enters the Union, it
surrenders
certain
sovereign
prerogatives. Massachusetts cannot
invade Rhode Island to force reductions
in greenhouse gas emissions, it cannot
negotiate an emissions treaty with China
or India, and in some circumstances the
exercise of its police powers to reduce instate motor-vehicle emissions might well
be pre-empted. See Alfred L, Snapp &
Son, Inc, v. Puerto Rico ex rel. Barez, 458
U.S. 592, 607, 102 S. Ct. 3260, 73 L. Ed.
2d 995 (1982) (“One helpful indication in
determining whether an alleged injury to
the health and welfare of its citizens
suffices to give the State standing to sue
parens patriae is whether the injury is
one that the State, if it could, would
likely attempt to address through its
sovereign lawmaking powers”).
These sovereign prerogatives are
now lodged in the Federal Government,
and Congress has ordered EPA to protect
Massachusetts (among others) by
prescribing standards applicable to the
“emission of any air pollutant from any
class or classes of new motor vehicle
engines, which in [the Administrator’s]
judgment cause, or contribute to, air
pollution which may reasonably be

App-66
anticipated to endanger public health or
welfare.” 42 U.S.C. § 7521(a) (1).
Congress has moreover recognized a
concomitant
procedural
right
to
challenge the rejection of its rulemaking
petition as arbitrary and capricious. §
7607 (b) (1). Given that procedural right
and Massachusetts’ stake in protecting
its
quasi-sovereign
interests,
the
Commonwealth is entitled to special
solicitude in our standing analysis.
Id. at 519-20 (alteration in Massachusetts v. EPA)
(footnote omitted). The Supreme Court specifically
rejected the dissent’s argument that Snapp precluded
parens patriae cases and noted that “Massachusetts
does not here dispute that the Clean Air Act applies to
its citizens; it rather seeks to assert its rights under
the Act.” Id. at 520 n.17.
Similarly, here, while Plaintiff arguably could
prevent large vessels from American Samoa from
fishing in the LVPA, it has no power to prevent foreign
vessels from doing so. Under the MSA, the LVPA is
within the federal government’s “exclusive fishery
management authority over all fish, and all
Continental Shelf fishery resources, within the
exclusive economic zone (‘EEZ’), which extends from
the seaward 7 boundary of each coastal state to 200
miles offshore.”7 3/20/17 Order, 2017 WL 1073348, at
7

American Samoa is considered a “state” for purposes of the
MSA. 16 U.S.C. § 1802(40).

App-67
*2 (footnote, internal quotation marks, and some
citations omitted) (quoting Chinatown Neighborhood
Ass’n v, Harris, 794 F.3d 1136, 1139 (9th Cir. 2015)).
The MSA requires NMFS to protect the resources in
the LVPA by adopting rules and regulations that are
“consistent with the fishery management plan, with
the national standards and other provisions of this
chapter, and with any other applicable law.” See 16
U.S.C. § 1854(c)(7). The Deeds of Cession constitute
“any other applicable law,” with which NMFS rules
and regulations must be consistent. 3/20/17 Order,
2017 WL 1073348, at *16. Plaintiff is not seeking to
apply the MSA to its people; it seeks to assert its rights
under the MSA by using the APA’s established
procedure to challenge arbitrary and capricious
agency action. As articulated in Massachusetts v.
EPA, Plaintiff may assert parens patriae standing to
challenge the 2016 LVPA Rule.
The cases upon which Defendants’ argument
rely were either issued prior to Massachusetts v. EPA
or are distinguishable. One case cited. Sierra Forest
Legacy v. Sherman, 646 F.3d 1161 (9th Cir. 2011), was
decided after Massachusetts v. EPA and thus needs to
be addressed. In Sierra Forest, the Ninth Circuit
concluded that “California, like all states, ‘does not
have standing as parens patriae to bring an action
against the Federal Government’” Id. at 1178 (quoting
Alfred L, Snapp & Son, Inc. v. Puerto Rico, 458 U.S.
592, 610 n.16, 102 S. Ct. 3260. 73 L. Ed. 2d 995 (1982)).
The Ninth Circuit, however, also recognized that:
“States are also not ‘normal litigants for the purposes
of invoking federal jurisdiction’”; and the “‘wellfounded desire to preserve [a state’s] sovereign

App-68
territory’ ‘support[s] federal jurisdiction,’ which may
be further reinforced by ownership of ‘a great deal of
the territory alleged to be affected’ by a challenged
federal action.” Id. (alterations in Sierra Forest) (some
citations and internal quotation marks omitted)
(quoting Massachusetts v. EPA, 549 U.S. at 518, 519).
Of significance to the matter at hand, it held that “the
State of California ha[d] concrete and particularized
interests protected by the application of’ the National
Environmental Policy Act (“NEPA”) to the United
States Forest Service’s 2004 Sierra Nevada Forest
Plan Amendment (“2004 Framework”), and
“California ha[d] standing to assert a facial NEPA
claim against the 2004 Framework.” Id. at 1178-79.
Thus, Sierra Forest supports Plaintiffs parens patriae
standing to challenge agency action in this case,
namely, the 2016 LVPA Rule.
Defendants’ argument that Snapp and similar
cases preclude Plaintiff from asserting parens patriae
standing in this case is rejected. As to Defendants’
contention that, even if Plaintiff can assert parens
patriae standing, it does not meet the parens patriae
requirements in this case, their arguments merely
disagree with this Court’s analysis in the 3/20/17
Order, and such disagreement does not constitute
sufficient grounds for reconsideration. See Barnes v.
Sea Hawaii Rafting. LLC, 16 F. Supp. 3d 1171, 1183
(D. Hawai’i 2014) (“Mere disagreement with a

App-69
previous order is an insufficient
reconsideration.” (citation omitted)).8

basis

for

To the extent that Defendants’ Motion for
Reconsideration challenges this Court’s ruling on the
standing issue, the motion is denied.
B. Remedy
Defendants argue that, even if the standing
argument is rejected, “the remedy of vacatur is unjust
and the Court should exercise its discretion to leave
the 2016 LVPA Rule in place during remand.” [Mem.
in Supp. of Motion for Reconsideration at 21.]
Defendants acknowledge that, under the APA, “where
an agency rule is found to be arbitrary and capricious
or otherwise not in accordance with law. the proper
course, except in rare circumstances. is to remand to
the agency[.’]” [Id. (quoting INS v. Orlando Ventura,
537 U.S. 12, 16 (2002)).] Defendants argue that this is
one of the rare circumstances where remand without
vacatur is warranted because the seriousness of the
error in the 2016 LVPA Rule is outweighed by the
“‘disruptive consequences’ of vacatur.” [Id. at 22
(quoting Cal. Cmtys. Against Toxics v. EPA, 688 F.3d
8

Even if this Court concluded that it was not possible for
Plaintiff to have parens patriae standing to challenge the
2016 LVPA Rule, this Court would still find that Plaintiff
“has concrete and particularized interests protected by the
application of [the MSA] to the [2016 LVPA Rule].” See Sierra
Forest, 646 F.3d at 1178. For the reasons stated in the 3/20/17
Order, 2017 WL 1073348, at *13, this Court would conclude
that Plaintiff has standing to raise a direct challenge the
2016 LVPA Rule.

App-70
989, 992 (9th Cir. 2012)).] Further, Defendants
represent that “NMFS can correct its error through a
rulemaking process that should take no longer than
fifteen months.” [Id. at 21] In California Communities,
the Ninth Circuit stated:
A flawed rule need not be vacated. See
Idaho Farm Bureau Fed’n v. Babbitt, 58
F.3d 1392, 1405 (9th Cir. 1995); W. Oil &
Gas Ass’n v, EPA, 633 F.2d 803, 813 (9th
Cir. 1980). Indeed, “when equity
demands, the regulation can be left in
place while the agency follows the
necessary procedures” to connect its
action. Idaho Farm Bureau, 58 F.3d at
1405. Even though the agency’s error
was significant in Idaho Farm Bureau,
we didn’t vacate the agency’s rule
because that could have wiped out a
species of snail. Id. at 1405-06. Similarly,
in Western Oil and Gas, we didn’t order
vacatur because doing so would have
thwarted “the operation of the Clean Air
Act in the State of California during the
time the deliberative process [was]
reenacted.” 633 F.2d at 813.
Whether agency action should be
vacated depends on how serious the
agency’s errors are “and the disruptive
consequences of an interim change that
may itself be changed.” Allied-Signal,
Inc, v. U.S. Nuclear Regulatory Comm’n,

App-71
988 F.2d 146, 150-51 (D.C. Cir. 1993)
(internal quotation marks omitted).
688 F.3d at 992 (alteration in Cal. Cmtys.).
The general rule is that the APA “requires
federal courts to set aside federal agency action that is
‘not in accordance with law.’ 5 U.S.C. § 706(2)(A).” Fed.
Commc’ns Comm’n v. NextWave Pers. Commc’ns Inc.,
537 U.S. 293, 300 (2003) (emphasis added). As
Defendants recognize, the exception of remand
without vacatur is applied only in rare circumstances.
The instant case does not present the type of
rare circumstances where the exception is warranted.
Defendants’ failure to follow the law in drafting the
2016 LVPA Rule was a significant error. Does equity
demand that this regulation be left in place while
Defendants correct their action? It does not. In Idaho
Farm Bureau, the rule was not vacated because to do
so would have caused a species of snail to be wiped out.
58 F.3d at 1405-06. Here, Defendants have not shown
significant harm would result from the vacatur of the
2016 LVPA Rule. While Defendants argue that
disruption will ensue and benefits that have accrued
because of the 2016 LVPA Rule would be lost if
vacated, these fall short of “rare circumstances”
warranting remand without vacatur. An improved
circumstances argument or generalized disruption
claim could be made for almost every invalid agency
rule and thus can hardly meet the requirement of
rarity.
To the extent that Defendants’ Motion for
Reconsideration challenges the order that the 2016

App-72
LVPA Rule is vacated, the motion is denied.
Defendants have failed to establish either clear error
in the 3/20/17 Order or that reconsideration is
necessary to prevent manifest injustice.
CONCLUSION
On the basis of the foregoing, Defendants’
“Motion for Reconsideration and to Amend the Court’s
Judgment (Dkt. No. 48) Pursuant to Local Rule 60.1
and Federal Rule of Civil Procedure 59(e),” filed May
9, 2017, is HEREBY DENIED.
IT IS SO ORDERED.
DATED AT HONOLULU, HAWAII, August 10,
2017.
/s/ Leslie E. Kobayashi
Leslie E. Kobayashi
United States District Judge

App-73
Appendix D
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
16 U.S.C. § 1853(a)
(a) Required provisions
Any fishery management plan which is prepared
by any Council, or by the Secretary, with respect to
any fishery, shall-(1) contain the conservation and management
measures, applicable to foreign fishing and fishing by
vessels of the United States, which are-(A) necessary
and
appropriate
for
the
conservation and management of the fishery, to
prevent overfishing and rebuild overfished stocks, and
to protect, restore, and promote the long-term health
and stability of the fishery;
(B) described in this subsection or subsection (b),
or both; and
(C) consistent with the national standards, the
other provisions of this chapter, regulations
implementing recommendations by international
organizations in which the United States participates
(including but not limited to closed areas, quotas, and
size limits), and any other applicable law;
(2) contain a description of the fishery, including,
but not limited to, the number of vessels involved, the
type and quantity of fishing gear used, the species of
fish involved and their location, the cost likely to be
incurred in management, actual and potential

App-74
revenues from the fishery, any recreational interests
in the fishery, and the nature and extent of foreign
fishing and Indian treaty fishing rights, if any;
(3) assess and specify the present and probable
future condition of, and the maximum sustainable
yield and optimum yield from, the fishery, and include
a summary of the information utilized in making such
specification;
(4) assess and specify-(A) the capacity and the extent to which fishing
vessels of the United States, on an annual basis, will
harvest the optimum yield specified under paragraph
(3),
(B) the portion of such optimum yield which, on
an annual basis, will not be harvested by fishing
vessels of the United States and can be made available
for foreign fishing, and
(C) the capacity and extent to which United
States fish processors, on an annual basis, will process
that portion of such optimum yield that will be
harvested by fishing vessels of the United States;
(5) specify the pertinent data which shall be
submitted to the Secretary with respect to
commercial, recreational,1 charter fishing, and fish
processing in the fishery, including, but not limited to,
information regarding the type and quantity of fishing
gear used, catch by species in numbers of fish or
weight thereof, areas in which fishing was engaged in,
time of fishing, number of hauls, economic information
necessary to meet the requirements of this chapter,
and the estimated processing capacity of, and the

App-75
actual processing capacity utilized by, United States
fish processors,2
(6) consider
and
provide
for
temporary
adjustments, after consultation with the Coast Guard
and persons utilizing the fishery, regarding access to
the fishery for vessels otherwise prevented from
harvesting because of weather or other ocean
conditions affecting the safe conduct of the fishery;
except that the adjustment shall not adversely affect
conservation efforts in other fisheries or discriminate
among participants in the affected fishery;
(7) describe and identify essential fish habitat for
the fishery based on the guidelines established by the
Secretary under section 1855(b)(1)(A) of this title,
minimize to the extent practicable adverse effects on
such habitat caused by fishing, and identify other
actions to encourage the conservation and
enhancement of such habitat;
(8) in the case of a fishery management plan that,
after January 1, 1991, is submitted to the Secretary
for review under section 1854(a) of this title (including
any plan for which an amendment is submitted to the
Secretary for such review) or is prepared by the
Secretary, assess and specify the nature and extent of
scientific data which is needed for effective
implementation of the plan;
(9) include a fishery impact statement for the
plan or amendment (in the case of a plan or
amendment thereto submitted to or prepared by the
Secretary after October 1, 1990) which shall assess,
specify, and analyze the likely effects, if any, including
the cumulative conservation, economic, and social

App-76
impacts, of the conservation and management
measures on, and possible mitigation measures for-(A) participants in the fisheries and fishing
communities affected by the plan or amendment;
(B) participants in the fisheries conducted in
adjacent areas under the authority of another Council,
after consultation with such Council and
representatives of those participants; and
(C) the safety of human life at sea, including
whether and to what extent such measures may affect
the safety of participants in the fishery;
(10) specify objective and measurable criteria for
identifying when the fishery to which the plan applies
is overfished (with an analysis of how the criteria were
determined and the relationship of the criteria to the
reproductive potential of stocks of fish in that fishery)
and, in the case of a fishery which the Council or the
Secretary has determined is approaching an
overfished condition or is overfished, contain
conservation and management measures to prevent
overfishing or end overfishing and rebuild the fishery;
(11) establish
a
standardized
reporting
methodology to assess the amount and type of bycatch
occurring in the fishery, and include conservation and
management measures that, to the extent practicable
and in the following priority-(A) minimize bycatch; and
(B) minimize the mortality of bycatch which
cannot be avoided;
(12) assess the type and amount of fish caught
and released alive during recreational fishing under

App-77
catch and release fishery management programs and
the mortality of such fish, and include conservation
and management measures that, to the extent
practicable, minimize mortality and ensure the
extended survival of such fish;
(13) include a description of the commercial,
recreational, and charter fishing sectors which
participate in the fishery, including its economic
impact, and, to the extent practicable, quantify trends
in landings of the managed fishery resource by the
commercial, recreational, and charter fishing sectors;
(14) to the extent that rebuilding plans or other
conservation and management measures which
reduce the overall harvest in a fishery are necessary,
allocate, taking into consideration the economic
impact of the harvest restrictions or recovery benefits
on the fishery participants in each sector, any harvest
restrictions or recovery benefits fairly and equitably
among the commercial, recreational, and charter
fishing sectors in the fishery and;3
(15) establish a mechanism for specifying annual
catch limits in the plan (including a multiyear plan),
implementing regulations, or annual specifications, at
a level such that overfishing does not occur in the
fishery, including measures to ensure accountability.

App-78
16 U.S.C. § 1854(a)
(a) Review of plans
(1) Upon transmittal by the Council to the
Secretary of a fishery management plan or plan
amendment, the Secretary shall-(A) immediately commence a review of the plan or
amendment to determine whether it is consistent with
the national standards, the other provisions of this
chapter, and any other applicable law; and
(B) immediately publish in the Federal Register a
notice stating that the plan or amendment is available
and that written information, views, or comments of
interested persons on the plan or amendment may be
submitted to the Secretary during the 60-day period
beginning on the date the notice is published.
(2) In undertaking the review required under
paragraph (1), the Secretary shall-(A) take into account the information, views, and
comments received from interested persons;
(B) consult with the Secretary of State with
respect to foreign fishing; and
(C) consult with the Secretary of the department
in which the Coast Guard is operating with respect to
enforcement at sea and to fishery access adjustments
referred to in section 1853(a)(6) of this title.
(3) The Secretary shall approve, disapprove, or
partially approve a plan or amendment within 30 days
of the end of the comment period under paragraph (1)
by written notice to the Council. A notice of
disapproval or partial approval shall specify--

App-79
(A) the applicable law with which the plan or
amendment is inconsistent;
(B) the nature of such inconsistencies; and
(C) recommendations concerning the actions that
could be taken by the Council to conform such plan or
amendment to the requirements of applicable law.
If the Secretary does not notify a Council within
30 days of the end of the comment period of the
approval, disapproval, or partial approval of a plan or
amendment, then such plan or amendment shall take
effect as if approved.
(4) If the Secretary disapproves or partially
approves a plan or amendment, the Council may
submit a revised plan or amendment to the Secretary
for review under this subsection.
(5) For purposes of this subsection and subsection
(b), the term “immediately” means on or before the 5th
day after the day on which a Council transmits to the
Secretary a fishery management plan, plan
amendment, or proposed regulation that the Council
characterizes as final.

App-80
16 U.S.C. § 1854(c)
(c) Preparation and review of Secretarial
plans
(1) The Secretary may prepare a fishery
management plan, with respect to any fishery, or any
amendment to any such plan, in accordance with the
national standards, the other provisions of this
chapter, and any other applicable law, if-(A) the appropriate Council fails to develop and
submit to the Secretary, after a reasonable period of
time, a fishery management plan for such fishery, or
any necessary amendment to such a plan, if such
fishery requires conservation and management;
(B) the Secretary disapproves or partially
disapproves any such plan or amendment, or
disapproves a revised plan or amendment, and the
Council involved fails to submit a revised or further
revised plan or amendment; or
(C) the Secretary is given authority to prepare
such plan or amendment under this section.
(2) In preparing any plan or amendment under
this subsection, the Secretary shall-(A) conduct public hearings, at appropriate times
and locations in the geographical areas concerned, so
as to allow interested persons an opportunity to be
heard in the preparation and amendment of the plan
and any regulations implementing the plan; and
(B) consult with the Secretary of State with
respect to foreign fishing and with the Secretary of the
department in which the Coast Guard is operating
with respect to enforcement at sea.

App-81
(3) Notwithstanding paragraph (1) for a fishery
under the authority of a Council, the Secretary may
not include in any fishery management plan, or any
amendment to any such plan, prepared by him, a
provision establishing a limited access system,
including any limited access privilege program, unless
such system is first approved by a majority of the
voting members, present and voting, of each
appropriate Council.
(4) Whenever the Secretary prepares a fishery
management plan or plan amendment under this
section, the Secretary shall immediately-(A) for a plan or amendment for a fishery under
the authority of a Council, submit such plan or
amendment to the appropriate Council for
consideration and comment; and
(B) publish in the Federal Register a notice
stating that the plan or amendment is available and
that written information, views, or comments of
interested persons on the plan or amendment may be
submitted to the Secretary during the 60-day period
beginning on the date the notice is published.
(5) Whenever a plan or amendment is submitted
under paragraph (4)(A), the appropriate Council must
submit its comments and recommendations, if any,
regarding the plan or amendment to the Secretary
before the close of the 60-day period referred to in
paragraph (4)(B). After the close of such 60-day period,
the Secretary, after taking into account any such
comments and recommendations, as well as any
views, information, or comments submitted under
paragraph (4)(B), may adopt such plan or amendment.

App-82
(6) The Secretary may propose regulations in the
Federal Register to implement any plan or
amendment prepared by the Secretary. In the case of
a plan or amendment to which paragraph (4)(A)
applies, such regulations shall be submitted to the
Council with such plan or amendment. The comment
period on proposed regulations shall be 60 days, except
that the Secretary may shorten the comment period
on minor revisions to existing regulations.
(7) The Secretary shall promulgate final
regulations within 30 days after the end of the
comment period under paragraph (6). The Secretary
must publish in the Federal Register an explanation
of any substantive differences between the proposed
and final rules. All final regulations must be
consistent with the fishery management plan, with
the national standards and other provisions of this
chapter, and with any other applicable law.

App-83
16 U.S.C. § 1855(f)
(f) Judicial review
(1) Regulations promulgated by the Secretary
under this chapter and actions described in paragraph
(2) shall be subject to judicial review to the extent
authorized by, and in accordance with, chapter 7 of
Title 5, if a petition for such review is filed within 30
days after the date on which the regulations are
promulgated or the action is published in the Federal
Register, as applicable; except that-(A) section 705 of such Title is not applicable, and
(B) the appropriate court shall only set aside any
such regulation or action on a ground specified in
section 706(2)(A), (B), (C), or (D) of such Title.
(2) The actions referred to in paragraph (1) are
actions that are taken by the Secretary under
regulations which implement a fishery management
plan, including but not limited to actions that
establish the date of closure of a fishery to commercial
or recreational fishing.
(3)(A) Notwithstanding any other provision of
law, the Secretary shall file a response to any petition
filed in accordance with paragraph (1), not later than
45 days after the date the Secretary is served with
that petition, except that the appropriate court may
extend the period for filing such a response upon a
showing by the Secretary of good cause for that
extension.
(B) A response of the Secretary under this
paragraph shall include a copy of the administrative

App-84
record for the regulations that are the subject of the
petition.
(4) Upon a motion by the person who files a
petition under this subsection, the appropriate court
shall assign the matter for hearing at the earliest
possible date and shall expedite the matter in every
possible way.

